<html>
<title> - FIRSTNET OVERSIGHT: AN UPDATE ON THE STATUS OF THE PUBLIC SAFETY BROADBAND NETWORK</title>
<body><pre>[Senate Hearing 114-407]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 114-407
 
                     FIRSTNET OVERSIGHT: AN UPDATE
                          ON THE STATUS OF THE
                    PUBLIC SAFETY BROADBAND NETWORK

=======================================================================

                                HEARING

                               before the

    SUBCOMMITTEE ON COMMUNICATIONS, TECHNOLOGY, INNOVATION, AND THE 
                                INTERNET

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 21, 2016

                               __________

    Printed for the use of the Committee on Commerce, Science, and Transportation
    
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   





                 U.S. GOVERNMENT PUBLISHING OFFICE
                   
 22-358 PDF              WASHINGTON : 2016       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                 

    
    
                             


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
MARCO RUBIO, Florida                 CLAIRE McCASKILL, Missouri
KELLY AYOTTE, New Hampshire          AMY KLOBUCHAR, Minnesota
TED CRUZ, Texas                      RICHARD BLUMENTHAL, Connecticut
DEB FISCHER, Nebraska                BRIAN SCHATZ, Hawaii
JERRY MORAN, Kansas                  EDWARD MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 CORY BOOKER, New Jersey
RON JOHNSON, Wisconsin               TOM UDALL, New Mexico
DEAN HELLER, Nevada                  JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               GARY PETERS, Michigan
STEVE DAINES, Montana
                       Nick Rossi, Staff Director
                 Adrian Arnakis, Deputy Staff Director
                    Rebecca Seidel, General Counsel
                 Jason Van Beek, Deputy General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
       Clint Odom, Democratic General Counsel and Policy Director
                                 ------                                

    SUBCOMMITTEE ON COMMUNICATIONS, TECHNOLOGY, INNOVATION, AND THE 
                                INTERNET

ROGER F. WICKER, Mississippi,        BRIAN SCHATZ, Hawaii, Ranking
    Chairman                         MARIA CANTWELL, Washington
ROY BLUNT, Missouri                  CLAIRE McCASKILL, Missouri
MARCO RUBIO, Florida                 AMY KLOBUCHAR, Minnesota
KELLY AYOTTE, New Hampshire          RICHARD BLUMENTHAL, Connecticut
TED CRUZ, Texas                      EDWARD MARKEY, Massachusetts
DEB FISCHER, Nebraska                CORY BOOKER, New Jersey
JERRY MORAN, Kansas                  TOM UDALL, New Mexico
DAN SULLIVAN, Alaska                 JOE MANCHIN III, West Virginia
RON JOHNSON, Wisconsin               GARY PETERS, Michigan
DEAN HELLER, Nevada
CORY GARDNER, Colorado
STEVE DAINES, Montana


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 21, 2016....................................     1
Statement of Senator Wicker......................................     1
Statement of Senator Schatz......................................     2
Statement of Senator Gardner.....................................    28
Statement of Senator Daines......................................    30
Statement of Senator Fischer.....................................    32
Statement of Senator Blumenthal..................................    36
Statement of Senator Klobuchar...................................    38

                               Witnesses

Michael Poth, Chief Executive Officer, First Responder Network 
  Authority (FirstNet)...........................................     3
    Prepared statement...........................................     5
Jeffrey S. McLeod, Director, Homeland Security and Public Safety 
  Division, National Governors Association's Center for Best 
  Practices......................................................     9
    Prepared statement...........................................    11
Major General Arthur J. Logan, Hawaii Adjutant General, State of 
  Hawaii.........................................................    14
    Prepared statement...........................................    16
Andrew Katsaros, Principal Assistant Inspector General for Audit 
  and Evaluation, U.S. Department of Commerce Office of Inspector 
  General........................................................    18
    Prepared statement...........................................    20

                                Appendix

Hon. Bill Nelson, U.S. Senator from Florida, prepared statement..    41
Response to written questions submitted to Michael Poth by:
    Hon. Kelly Ayotte............................................    41
    Hon. Ron Johnson.............................................    43
    Hon. Cory Gardner............................................    43
    Hon. Bill Nelson.............................................    46
    Hon. Cory Booker.............................................    47
    Hon. Joe Manchin.............................................    48
    Hon. Gary Peters.............................................    49
Response to written questions submitted by Hon. Joe Manchin to:
    Jeffrey S. McLeod............................................    51
    General Arthur J. Logan......................................    51
Response to written questions submitted to Andrew Katsaros by:
    Hon. Kelly Ayotte............................................    52
    Hon. Joe Manchin.............................................    54


                     FIRSTNET OVERSIGHT: AN UPDATE



                          ON THE STATUS OF THE



                    PUBLIC SAFETY BROADBAND NETWORK

                              ----------                              


                         TUESDAY, JUNE 21, 2016

                               U.S. Senate,
       Subcommittee on Communications, Technology, 
                      Innovation, and the Internet,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:33 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Roger Wicker, 
Chairman of the Subcommittee, presiding.
    Present: Senators Wicker [presiding], Schatz, Gardner, 
Daines, Fischer, Klobuchar, Blumenthal, Ayotte, Heller, and 
Manchin.

          OPENING STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Good morning. I'm glad to convene today's 
hearing with my friend and colleague Ranking Member Schatz.
    We would like to focus on the progress FirstNet has made 
and the challenges that lie ahead in deploying a nationwide 
public safety network. The First Responder Network Authority, 
also known as FirstNet, was established under the Middle Class 
Tax Relief and Job Creation Act of 2012. It is intended to 
address communication failures that slowed recovery efforts 
during major national emergencies, including the 9/11 attacks 
and Hurricane Katrina.
    In Mississippi, we saw firsthand the consequences of 
communication network breakdown. FEMA, Red Cross, and others 
were hindered from providing the emergency recovery services 
needed during and after Katrina.
    Tasked with building and operating a Nationwide Public 
Safety Broadband Network, the 2012 Act allocated $7 billion 
from spectrum auction proceeds to launch FirstNet. The AWS-3 
spectrum auction, which concluded in January 2015, raised the 
$7 billion needed to begin the planning and development stage.
    Although FirstNet has made commendable progress in the 
first year, questions linger about the future viability of the 
network. I appreciate FirstNet's commitment to providing our 
rural communities with the same services as larger urban 
cities, but rural and remote coverage remains a major concern 
of mine.
    The cost of coverage and maintenance of the network in 
these hard-to-reach areas needs to be addressed on the front 
end of deployment. An accurate inventory of towers and 
equipment is critical to ensuring that infrastructure is 
capable of withstanding 200-mile-per-hour winds during storms 
similar to Katrina.
    Each region of the country faces a unique set of 
challenges, and addressing these challenges is critical to 
fulfilling Congress's goal of creating FirstNet. We should 
ensure that FirstNet's plan for deployment includes the 
technical requirements that may be necessary.
    However, we recognize that nationwide deployment will not 
occur overnight. Over the next several months, FirstNet will be 
reviewing bids to award a contract for all aspects of 
deployment. As this process moves forward, I urge FirstNet and 
all stakeholders to look carefully at the long-term viability 
of the network.
    With a limited user base, FirstNet must have the 
sophistication to determine who has not only the technical 
capacity, but also the ability to monetize the network in order 
to keep it running in the future. The costs placed on public 
safety entities to use the network are also a major concern 
with regard to long-term sustainability.
    Last year's oversight hearing examined the progress that 
had been made and FirstNet's plan for outreach to stakeholders 
in each State and territory. Today, I look forward to hearing 
about FirstNet's accomplishment in the past year, what 
benchmarks have been met, and what work still needs to be done.
    I want to welcome all of our witnesses and thank them for 
testifying this morning. Our panel today includes a number of 
stakeholders overseeing the deployment process who can help 
shed light on the challenges ahead.
    Senator Schatz.

                STATEMENT OF HON. BRIAN SCHATZ, 
                    U.S. SENATOR FROM HAWAII

    Senator Schatz. Thank you, Mr. Chairman. And thank you to 
our witnesses. I especially want to offer my welcome to 
Hawaii's Adjutant General, General Logan.
    We are here today to discuss the progress FirstNet has made 
toward creating an interoperable nationwide wireless broadband 
network for first responders. In 2012, when Congress created 
FirstNet, we made an important commitment to public safety. The 
new Federal entity we created is a unique public-private 
partnership mandated to deploy this network for first 
responders. At the time this legislation was passed, we still 
lacked a nationwide interoperable public safety communication 
network in spite of the glaring communications problems that 
had been exposed following the tragedies of September 11th and 
Hurricane Katrina.
    Until this network is built, our first responders will have 
to carry their bulky land mobile radios for their mission-
critical voice communications and carry around a commercial 
smartphone for their data needs. There is really no reason that 
a 16-year-old with a smartphone should have more technology at 
their fingertips than our first responders.
    FirstNet will provide first responders mission-critical 
data use for the first time. This network will be built and 
hardened to public safety specifications. It will have rugged 
eyes and competitive devices and specific public safety 
applications. For example, firefighters could download the 
blueprint of a burning building before they enter; a police 
officer arriving at the scene can run a background check or get 
pictures of a suspect by accessing a Federal law enforcement 
database; most importantly, emergency personnel will not be 
competing with commercial users for bandwidth. They will have 
priority on this network.
    FirstNet's staff and board should be congratulated for 
releasing its RFP earlier this year, which is a real milestone 
toward construction of the network. They have received bids and 
will be evaluating potential vendors during the next several 
months while continuing to work with states on their 
participation. As they progress, FirstNet and its commercial 
partner will have to make sure that first responders and each 
State sees the value in the network.
    As General Logan may touch upon today, we need to ensure 
that the specific needs of all states and territories are 
respected in order to accommodate for geographic and other 
differences across our great country.
    While Congress will continue to keep a close eye on 
FirstNet's work, the reality is that we are in a wait-and-see 
mode until FirstNet chooses its private sector partner, and so 
I expect that Mr. Poth may not be able to address every issue 
raised today, as they are in the middle of a procurement 
process. Once the vendor has been chosen, FirstNet and all of 
its partners can begin in earnest to build the network that 
delivers on the promise that Congress made to public safety in 
2012.
    Again, I want to thank the witnesses for appearing before 
the Committee, and I look forward to hearing your testimony.
    Senator Wicker. Thank you, Senator Schatz. Our witnesses 
today are Mr. Michael Poth, CEO of FirstNet; Mr. Jeffrey 
McLeod, Director of Homeland Security and Public Safety 
Division of the National Governors Association; Senator Schatz 
has already mentioned Major General Arthur J. Logan, the Single 
Point of Contact, State of Hawaii, and the Hawaii Adjutant 
General; and, fourthly, Mr. Andrew Katsaros, Assistant 
Inspector General for Audit, U.S. Department of Commerce, 
Washington, D.C.
    Gentlemen, we appreciate all of you being with us today, 
and we'll begin with the testimony of Mr. Poth and ask each of 
you if you could limit your verbal testimony to 5 minutes. 
Thank you.
    Mr. Poth.

      STATEMENT OF MICHAEL POTH, CHIEF EXECUTIVE OFFICER, 
          FIRST RESPONDER NETWORK AUTHORITY (FirstNet)

    Mr. Poth. Thank you, Chairman Wicker, Ranking Member 
Schatz, and Members of the Subcommittee. Thank you for inviting 
me to testify today.
    Since I began at FirstNet a little over 10 months ago, I've 
seen firsthand the dedication that the FirstNet board and staff 
have toward the successful deployment of the nationwide public 
safety broadband network. Public safety, that's who we work for 
every day, and we have never taken our focus off the goal of 
delivering the best possible network for the men and women who 
keep us safe and put themselves in harm's way every single day. 
We are the stewards for their network.
    I'd like to take just a moment and thank those public 
safety personnel who are in the audience today. Senators, their 
presence are an indication that they are keeping all of our 
feet to the fire as we work together in making FirstNet a 
reality.
    We've accomplished a great deal over the past 12 months: 
wrapped up our initial consultation meetings with every State 
and territory partner who requested one; kicked off 2016 
consultation with our single points of contacts meetings, 
SPOCs; and are well underway in the State governance board 
meetings in coordination with our SPOCs. Then we released the 
RFP and are now moving forward aggressively toward award.
    It is around the RFP that I would like to focus the 
majority of my comments today. When the FirstNet chairwoman, 
Sue Swenson, testified before the full committee around 15 
months ago, she laid out the roadmap that FirstNet was planning 
to move along in order to successfully conduct consultation 
with the states and develop a procurement strategy that would 
ultimately result in a public-private partnership with the 
vendor. FirstNet continues to honor our commitments to do what 
we set out to do on time and under budget.
    We have to ensure not only that our 16 core objectives, 
including rural build-out, cybersecurity, public safety 
adoption, and financial sustainability, could be met by the 
vendor community, but we had to propose a business opportunity 
model that would ultimately be a win for public safety, a win 
for the states, a win for FirstNet, and a win for our 
commercial partner: a true public-private partnership across 
the board.
    Based on what we've seen in the past, the financial 
incentive was not enough for the commercial community to do 
this on their own, and we know that the taxpayer funds are 
simply not there to do this by ourselves. In essence, we had to 
develop a business proposition that fulfilled the needs of both 
parties. In developing the RFP, we met with hundreds of 
commercial entities, educating them on the business 
proposition, listening to their concerns, while trying to 
establish best methods and bringing the commercial world to the 
table.
    We're in the marketing mode to create the demand. In the 
buildup to the release, FirstNet held numerous industry days, 
informational sessions with the investment community, 
educational webinars for the vendor community, and public 
speaking engagements on both the draft RFP documents and the 
final RFP.
    Ultimately, after a year of intense work, we were able to 
release the RFP back in January of this year. The RFP was open 
to the vendor community for a little over 5 months, and was 
closed on this May 31st. We are confident that the RFP will 
lead to the successful public-private partnership that Congress 
envisioned.
    We're also confident the value proposition we have put 
forward will enable our partner to achieve the public safety 
user adoption targets, the coverage goals, the price points, 
and financial sustainability that we need. We will maximize the 
value of the $7 billion and the 20 megahertz spectrum that 
Congress and the American taxpayer provided FirstNet.
    We also know that the public safety user base exists, and 
``user adoption targets'' will become a contract term. We have 
designed the RFP to incentivize our partner to achieve the 
goals, and so we are allowing the market to work in both our 
and public safety's advantage. We have structured financial 
safeguards and operational oversight controls over our partner 
to ensure that we have the ability to keep them accountable 
throughout the duration of the contract.
    Today, we are in the evaluation phase of the project. Due 
to the rules that the Federal Acquisition Regulations, or FAR, 
places on FirstNet, I cannot comment on any aspects of the 
current actions of the organization related to the procurement.
    In 2016, we still continue consultation efforts with the 
States, conduct outreach with State, local, tribal, and Federal 
public safety agencies. We will select the partner from the 
procurement phase of the project and begin development of the 
State plans. Our previously established partnerships with the 
states will be critical for this phase of the effort.
    While we are proud of our efforts thus far, we cannot 
afford to rest for one moment. Too much work needs to be done. 
Public safety has long been demanding a broadband network, and 
now we are in reach of achieving this goal. The men and women 
who protect us from harm's way are counting on us to deliver 
the network, and we must do so for the sake of all first 
responders around the country. The need for this network has 
never been higher, and in order to meet the lofty expectations 
of public safety everywhere, I and the organization is 
committed to achieving the goals that Congress laid out for us 
just a few short years ago.
    Thank you again for your support, and I look forward to 
your questions.
    [The prepared statement of Mr. Poth follows:]

     Prepared Statement of Michael Poth, Chief Executive Officer, 
              First Responder Network Authority (FirstNet)
Introduction
    Chairman Wicker, Ranking Member Schatz, and all Members of the 
Subcommittee, I would like to thank you for the opportunity to appear 
here today to provide an update on the progress we are making at 
FirstNet toward the deployment of an interoperable nationwide public 
safety broadband network (NPSBN). I also want to thank all of the 
Members of this Subcommittee who were pivotal in creating FirstNet. We 
look forward to your continued support and to working with the 
Subcommittee and full Committee as FirstNet moves forward with our 
vital mission to improve public safety's access to broadband wireless 
communications across the country.
Progress Toward a Network
    FirstNet intends to provide cutting-edge, prioritized, and 
preemptive wireless broadband communications to millions of first 
responders at the local, state, tribal, and Federal levels across all 
states, territories and the District of Columbia, consistent with the 
vision laid out in the Middle Class Tax Relief and Job Creation Act of 
2012 (P.L. 112-96) (Act). By enabling the deployment of the dedicated 
NPSBN, FirstNet will provide a ubiquitous solution to decades-long 
interoperability and communications challenges and help make our 
communities and first responders safer with advanced communications 
services, devices, and applications.
    FirstNet's goal of enabling the deployment of the network and 
thereby meeting the needs of first responders is a matter of critical 
importance for public safety. Since our inception, FirstNet has taken 
the necessary steps to build an organization, execute a vigorous 
consultation and outreach strategy, develop and produce a comprehensive 
request for proposals (RFP), and lay the groundwork for a successful 
deployment of the NPSBN. Much has been accomplished. However, as it is 
with any such undertaking, every step forward presents new challenges, 
and requires that innovative solutions be identified. The past three 
years have involved thousands of working hours to solve the various 
challenges FirstNet has faced. I am proud to say that today we have an 
organization of people who are dedicated to public safety and to 
fulfilling our mission; a culture of hard work, openness, and 
transparency; a procurement strategy that we believe is attractive to 
the vendor community and will lead to a successful public-private 
agreement; and a robust consultation and outreach program to educate, 
inform, and obtain input from our stakeholders. With these 
accomplishments, we have sowed the seeds of success as FirstNet strives 
to develop the public safety broadband market here in the United States 
and to influence public safety around the world.
The Procurement Strategy and Development
    FirstNet has engaged in an acquisition process in accordance with 
the Federal Acquisition Regulation (FAR). FirstNet began its market 
research into the development of the comprehensive RFP in early 2013. 
The research included meetings with vendors as well as the issuance of 
13 Requests for Information (RFIs), with the last RFI and corresponding 
draft Statement of Objectives (SOO) released on September 17, 2014 in 
the form of a Special Notice. These RFIs addressed technical questions 
regarding the available offerings for equipment and services needed to 
implement the NPSBN, as well as questions regarding the acquisition 
approach and specific program objectives.
    We developed the final RFP using information and data gathered 
throughout this process, as well as from our vendor meetings and 
``Industry Days,'' stakeholder consultation, and public notice 
processes including the release of draft RFP documents in April, 2015. 
Our vendor outreach program aimed to obtain a better understanding of 
industry's capabilities and analyzed the recommendations and 
alternative approaches suggested by the public to determine how to best 
leverage existing capabilities and best practices in order to meet 
public safety needs.
    Following two successful ``Industry Days'' in 2015, FirstNet hosted 
a pre-proposal conference on March 10, 2016 with local participation 
and a simultaneous webcast. A total of 437 individuals participated 
representing 260 organizations, including industry, local government, 
media, states and territories, Federal agencies, and trade 
associations. The pre-proposal conference also provided key information 
pertaining to solicitation highlights and included upcoming key 
milestones and the overall phased evaluation approach contained in the 
solicitation.
    In addition to the ``Industry Days'' and the pre-proposal 
conference, FirstNet conducted one-on-one sessions with interested 
vendors. These sessions were held to discuss a vendor's capabilities, 
current commercial offerings, and major program objectives and to learn 
more about industry capabilities to meet those objectives.
    Through this acquisition, and the 16 objectives identified in the 
SOO as set forth in the solicitation, FirstNet is seeking a 
comprehensive network and a service solution that provides as much 
coverage and functionality as feasible. FirstNet's goal is to maximize 
the network's value to public safety while meeting our financial 
sustainability obligations under the Act. The objectives included in 
the SOO will ensure that the NPSBN operates as a single network 
guaranteeing seamless interoperability between states and territories, 
regardless of whether FirstNet or the state/territory deploys the Radio 
Access Network (RAN). FirstNet issued the RFP for the deployment of the 
NPSBN on January 13, 2016 and subsequently answered 447 industry and 
stakeholder questions pertaining to the solicitation and issued 14 
amendments to address the questions and feedback received.
    The evaluation is being conducted in a multi-phased approach. In 
Phase I, interested parties were given the opportunity to provide a 
``capability statement'' demonstrating they are capable of performing 
the work. The submission of a capability statement afforded FirstNet 
the opportunity to review and evaluate the experience and capability of 
potential offerors while providing viable potential offerors an 
opportunity to receive feedback. Notifications were issued to all 
parties who submitted a capability statement on April 8, 2016, and 
feedback sessions with those determined to be viable competitors were 
held on April 20th and 21st.
    Proposals for the comprehensive RFP were submitted by May 31, 2016. 
Following receipt of proposals, the Source Selection Team has commenced 
with the remaining evaluation phases (Phase II through Phase IV), as 
stated in the RFP and described below.
    During Phase II, the Source Selection Team will conduct an initial 
review of the proposals received to verify conformance and completeness 
with the RFP instructions. Those proposals that have been verified as 
complete and conform to the RFP instructions will move into Phase III--
Pass/Fail.
    As stated in the RFP, under Phase III, an offeror must demonstrate 
its ability to sustain the annual payments to FirstNet for the life of 
the contract and provide coverage in each of the 56 states and 
territories including rural areas. Those offerors whose proposed 
solutions have been determined to conform to the RFP in Phase II and 
successfully pass Phase III will move into Phase IV. During this final 
phase, FirstNet will conduct a detailed evaluation of all information 
and documentation received from the offerors based on the evaluation 
factors identified within the RFP.
    FirstNet currently anticipates making an award of the NPSBN 
contract by November 1, 2016, although the ultimate timing is dependent 
on the amount of time it takes to comprehensively complete the 
evaluation and award process in accordance with the Federal Acquisition 
Regulation.
Consultation and Outreach
    The consultation and outreach efforts undertaken by FirstNet over 
the past few years have been crucial to establishing lasting 
partnerships with the states, territories, tribal nations, Federal 
agencies, and public safety users. The information FirstNet has 
gathered through these efforts has informed our work to develop and 
deploy public safety's network and our comprehensive RFP. Consultation 
brings together the states and territories as partners in the 
development of the NPSBN by having the organization work with the State 
Single Point of Contacts (SPOCs) to ensure that FirstNet captures not 
only the needs and wishes of the local, state, and tribal public safety 
stakeholders, but the data that states and territories have collected 
through the funding provided by the National Telecommunication and 
Information Administration's (NTIA) State and Local Implementation 
Grant Program (SLIGP). Ultimately, we believe that consultation efforts 
will lead to the provision of better planned public safety 
communications services and products, and increase adoption of the 
NPSBN.
Initial Consultation
    FirstNet's initial consultation efforts focused on working with 
states and territories to facilitate a forum where public safety 
officials could discuss real-life examples and use-cases to illustrate 
how the FirstNet network could be used once deployed to improve 
incident and emergency response. These meetings confirmed to FirstNet 
just how diverse and locally focused the network will need to be. 
States were especially eager to demonstrate how their day-to-day 
challenges were, in the majority of cases, unique to that particular 
geographic area or region. For example, the western states have vast 
areas of terrain that, at this point, have proven difficult, if not 
impossible to cover. So, the issue of rural coverage was a topic that 
multiple states and territories raised with FirstNet on numerous 
occasions.
    A key takeaway from FirstNet's initial consultation efforts in 2015 
was that the network is an absolute necessity and that public safety 
today uses significant amounts of data to carry out their duties. Time 
and time again, states, territories, and public safety personnel 
throughout the Nation emphasized the need for the network and urged 
that FirstNet work as quickly as possible. By the end of the initial 
consultation process, FirstNet had held an in-state meeting with all 
states and territories that had requested one.
Phase 2 Consultation
    Building on the success of the initial consultation meetings, 
FirstNet developed a more focused second phase of consultation with the 
states and territories. And while FirstNet consulted with an impressive 
number of public safety personnel and groups during the initial 
consultation process, it was clear that more work needed to be done 
with the states and territories on the planning front. FirstNet decided 
to expand outreach efforts to reach a larger audience and to further 
educate the public safety community on our goals while concurrently 
focusing our consultation on individuals that will likely influence or 
contribute to a governor's decision on the RAN deployment to ensure 
such decision is informed.
    FirstNet has held SPOC follow-up meetings with 54 states and 
territories and completed Governance Body Consultation Meetings with 18 
states. These meetings are designed to connect with the states and 
territories on important network planning and implementation issues, 
such as State Plan development and a governor's decision whether to 
assume responsibility for RAN deployment and to have a discussion about 
the key influencers and key issues that the state/territory and 
FirstNet need to consider over the next year.
Data Collection
    As part of FirstNet's consultation efforts, states collected data 
from local, state, territory, and tribal public safety agencies, which 
provided FirstNet with substantial input from public safety 
stakeholders across the country. This data, also collected from Federal 
agencies, informed our comprehensive RFP in areas such as coverage, 
capacity, and public safety incident locations, and this information 
was made available to all potential offerors. FirstNet received data 
from over 11,600 public safety entities representing 1.6 million public 
safety personnel from 54 states and territories and seven Federal 
agencies. We are continuing to build on that effort this year, as all 
states and territories that choose to do so will be able to update 
their information using available SLIGP funds. All data that is 
voluntarily collected will continue to inform FirstNet's network 
planning and implementation efforts.
Outreach
    Throughout the consultation process, FirstNet has simultaneously 
engaged in extensive outreach to public safety stakeholders, including 
tribal communities, to educate and inform them about FirstNet and the 
NPSBN. As part of those efforts, FirstNet has coordinated with state 
and territories to support their outreach activities to public safety 
practitioners within their borders. FirstNet's tribal outreach team 
participated in the primary national and regional tribal organizations' 
conferences and meetings and state-hosted tribal engagements in an 
effort to educate tribes about FirstNet and encourage tribal 
participation in the state and Federal consultation and data collection 
process.
Federal Consultation
    Although the Act focuses on engagement and planning at the state, 
territory, tribal, and local levels, the NPSBN will also serve public 
safety personnel at the Federal level. As such, FirstNet has made it a 
priority to consult with Federal agencies that provide public safety 
services to account for the needs and objectives of those potential 
users. FirstNet staff has conducted numerous engagements with a variety 
of Federal organizations across the country. FirstNet also worked 
closely with Federal agency points of contact to complete an initial 
data collection effort that we intentionally aligned with the data 
collection effort conducted with the states.
Tribal Outreach
    FirstNet is committed to continuing its engagement with sovereign 
tribal nations. Tribes have a great need for the NPSBN and FirstNet's 
tribal outreach team have been traveling throughout the country to 
speak at tribal gatherings, meet with tribal nations regarding 
FirstNet, and support SPOC efforts to engage tribal communities
    In the past two years, FirstNet's tribal outreach team participated 
in the primary national and regional tribal organizations' conferences 
and meetings and state-hosted tribal engagements in an effort to 
educate tribes about FirstNet and encourage tribal participation in the 
state and Federal consultation and data collection process.
    In addition, through FirstNet's Public Safety Advisory Committee 
(PSAC) Tribal Working Group (TWG), FirstNet has continued to conduct 
regular dialogue with delegates and representatives from numerous 
tribal organizations.
    The TWG, comprised of representatives from a broad cross-section of 
multi-tribal associations, was established to provide FirstNet advice 
on tribal outreach, education, and inclusive consultation strategies to 
ensure participation by tribal jurisdictions in planning for the NPSBN.
State Plans
    Following the completion of the RFP process, the Act requires 
FirstNet to deliver a plan to each state and territory's governor. 
These ``State Plans'' will be used to guide and inform the governors on 
FirstNet's intended build-out of the RAN in each state or territory. 
The Act clearly requires the governor to decide whether FirstNet will 
deploy, maintain, and operate the RAN or whether the state or territory 
will assume such responsibility. Indeed, under the Act, until the 
governor makes this decision, there can be no early deployment, or any 
other action or decision related to the RAN in the state or territory.
    Together, FirstNet and our network partner will develop all 56 
State Plans. This is an enormous task given a number of factors, 
including: the finite resources that are available to FirstNet; the 
diverse and varied needs of each individual state and territory; the 
wide-ranging goals of the NPSBN; and public safety's expectations that 
FirstNet will deploy in a timely manner. To succeed in providing plans 
that are representative of not only the discussions that FirstNet has 
conducted with the states and territories, but also responsive to 
public safety's needs, FirstNet and our partner will need to make this 
process a top priority.
    Following the development of draft State Plans, FirstNet plans to 
provide each state and territory with an opportunity to review and 
discuss the draft plans with FirstNet prior to the delivery of the 
final plan to the governor. FirstNet will strive to provide State Plans 
that are detailed, accurate, and comprehensive, with the information 
necessary for each governor to make an informed decision whether to 
assume responsibility for the RAN and for the Federal Communications 
Commission (FCC) and NTIA to perform their respective statutory 
responsibilities of evaluating any state or territory-proposed 
alternative RAN plans. States and territories have been advised that 
the opportunity to make wholesale changes to these plans will be 
minimal and the time to review will be constrained due in part to the 
Act's directive to speed deployment of the network.
    FirstNet's goal is to deliver final State Plans to the governors in 
2017. Understandably, this date must remain flexible given the time 
constraints and fluidity of the procurement process as well as the 
tight timelines that FirstNet has preliminarily established to develop 
all 56 State Plans with our partner post-award.
Innovative and Economic Impact of the Network
    Innovation will be a hallmark of FirstNet. Not only will innovation 
occur at the outset of this network, it will continue in perpetuity for 
the benefit of public safety. If we could see into the future, five, 
ten, 20 years from now and beyond, I believe we would be amazed at the 
devices and applications that will be running on this network in 
support of public safety. In the commercial world we have long heard of 
the benefits of the Internet of Things (IOT), but imagine the benefits 
to public safety throughout the Nation once an ``Internet of Public 
Safety Things'' has been created. I believe that FirstNet can be that 
catalyst.
    Several other countries are already looking to the United States 
and FirstNet as a model for deploying a broadband network for public 
safety. Australia, Canada, Mexico, South Korea, and the United Kingdom 
are all looking to deploy their own version of FirstNet. Just like 
other industries and markets, it is vital that the United States lead 
and be at the forefront of public safety broadband. When we lead, we 
grow not only our economy, but we continue to have a leading presence 
in global markets that will influence future generations of technology 
and public safety innovation.
Conclusion
    I am grateful to the Subcommittee for the opportunity to update you 
on FirstNet's progress. As you can see, FirstNet has established an 
innovative business model that strikes the balance between providing 
public safety the network that it needs and deserves and incentivizing 
industry to participate in the development and deployment. FirstNet is 
not simply another government program. We have taken the framework 
provided under the Act and developed a unique startup that will 
leverage the best of the public safety community with the best of 
industry. Indeed, it is this public-private model that has driven much 
of our success to date and will lead to the win-win-win solution that 
we are striving to achieve; most importantly a win for public safety, 
but also a win for the private sector and a win for FirstNet.
    Notwithstanding this success and all that we have accomplished in a 
relatively short period of time, there remains an enormous amount of 
work ahead. FirstNet will continue to meet our statutory obligations, 
partner with those who will use and benefit from the network, and work 
toward the successful development, deployment, and operation of the 
NPSBN.
    I ask that this Subcommittee continue to support the organization 
as we move through our procurement and the selection of a network 
partner. I give you my commitment that FirstNet will continue to 
redouble our efforts in order to achieve our objectives, but we can 
only do so with the support of Congress, public safety, local 
governments, states, territories, tribal jurisdictions, Federal 
agencies, and our other stakeholders. Finally, it is important to 
remember that this is not FirstNet's network; this is public safety's 
network. The public safety community fought for the creation of 
FirstNet, and it is up to us to achieve their vision.

    Senator Wicker. Thank you very much.
    Mr. McLeod.

       STATEMENT OF JEFFREY S. McLEOD, DIRECTOR, HOMELAND

         SECURITY AND PUBLIC SAFETY DIVISION, NATIONAL

       GOVERNORS ASSOCIATION'S CENTER FOR BEST PRACTICES

    Mr. McLeod. Chairman Wicker, Ranking Member Schatz, 
distinguished members of the Subcommittee, my name is Jeff 
McLeod. I'm Director of the Homeland Security and Public Safety 
Division at the National Governors Association's Center for 
Best Practices.
    I appreciate the opportunity to appear before you as a 
representative of our Nation's Governors to discuss our shared 
commitment to building and sustaining a nationwide broadband 
network dedicated to public safety. NGA was a leading advocate 
of the public safety spectrum provisions in the legislation 
that led to the creation of FirstNet. NGA has represented 
Governors before Congress and FirstNet officials on key 
implementation issues and challenges facing states.
    My testimony today will address factors that Governors must 
weigh in reaching a decision whether to join in the deployment 
of the public safety broadband network, as referred by 
FirstNet, or to opt out and take on the responsibility of 
deploying, operating, and maintaining a radio access network in 
their state.
    Specifically, I'm going to focus on three issues: one, 
coverage; two, cost; and three, the consultation process 
through which FirstNet is required to engage State leaders. I 
would like to summarize my remarks and ask my full written 
testimony be submitted to the record.
    Our primary consideration for Governors in reaching their 
decision is the network's ability to offer reliable coverage 
statewide. This is a top concern in states with large rural 
areas and in states with challenging geography. FirstNet has 
stated that build-out and maintenance of the network in rural 
areas will be funded primarily from access fees generated from 
the user based in more densely populated areas. Thus, they are 
likely to prioritize build-out in metropolitan areas before 
rural areas. However, the financial needs of the network must 
be balanced with the needs of the public safety community. 
State will require that the network be built out in rural 
areas, where commercial access is more limited.
    In addition to concerns about coverage, questions of cost 
top the agenda for many Governors. Governors want to know, one, 
whether the network can be built within existing cost models; 
two, what the user fee to connect the network will be; and 
three, what are the long-term administrative and operation 
costs?
    The financial models that underpin the network's long-term 
sustainability requires a robust and diverse user base. If fees 
are too high and public safety users do not utilize the 
network, the financial success of the network could be in 
jeopardy. States remain concerned that this could lead to user 
fees that exceed current outlays on public safety 
communications technology. Given the unprecedented nature of 
building and maintaining a network of this size and complexity, 
states are concerned about the possibility of unforeseen costs 
being shifted to them.
    Regarding FirstNet's outreach to Governors on the 
consultation piece, some have expressed concern about the tone 
of the engagement. During the consultation process, FirstNet 
has referred to states as constituents. While this may appear 
to be mere word choice, it alters the tenor of the engagement 
and lessens the focus on partnership. FirstNet must view states 
as full partners in this endeavor. States have key information, 
processes, and expertise that must be brought to bear on the 
full range of FirstNet activities.
    In closing, to many states, the opt-out scenario is a false 
choice. While there are a number of unknowns associated with 
opting in, very few states are in a position to consider taking 
on the unknowable and likely significant financial liabilities 
associated with building, operating, and maintaining, and 
upgrading a full radio access network in their states if they 
choose to opt out.
    Finally, I would like to note that transition in Governors' 
administrations with the coming election cycles presents a 
continuing communication and education challenge for FirstNet.
    On behalf of NGA and our members, thank you for the 
opportunity to testify. I look forward to any questions the 
Committee may have.
    [The prepared statement of Mr. McLeod follows:]

 Prepared Statement of Jeffrey S. McLeod, Director, Homeland Security 
and Public Safety Division, National Governors Association's Center for 
                             Best Practices
Overview
    Chairman Wicker, Ranking Member Schatz and distinguished members of 
the Subcommittee, my name is Jeffrey McLeod, Director of the National 
Governors Association's Center for Best Practices' Homeland Security 
and Public Safety Division. The National Governors Association (NGA) is 
the bipartisan organization of the Nation's governors. Through NGA, 
governors share best practices, speak with a collective voice on 
national policy, and develop innovative solutions that improve state 
government and support the principles of federalism.
    I appreciate the opportunity to appear before you today on the 
implementation of the First Responder Network Authority (FirstNet). NGA 
was a leading advocate of the public safety spectrum provisions in the 
legislation that led to the creation of FirstNet, and NGA remains 
dedicated to implementing those provisions. Over the last four years, 
NGA has continued to represent governors before Congress and FirstNet 
officials on key implementation issues and challenges facing states. My 
testimony today will focus on the remaining factors governors and 
states must consider before reaching their respective decisions on 
broadband deployment.
    As you may already know, governors are engaged in efforts to 
develop and deploy a nationwide public safety broadband network. 
Pursuant to FirstNet's authorizing statute, the state planning process 
gives governors the decision to either participate in FirstNet's 
deployment or follow the necessary steps to provide an alternative plan 
for the construction, maintenance, operation and improvements of a 
state radio access network.\1\ That decision affects the entire state, 
including all individual jurisdictions.
---------------------------------------------------------------------------
    \1\ See 47 U.S.C. 1442(e)(2).
---------------------------------------------------------------------------
    Each state has unique needs for network coverage, which requires 
extensive consultation with FirstNet and other stakeholders. Although 
states still await FirstNet's plan for deployment, they continue to 
engage with FirstNet on the development of network policies and their 
respective plans.
    Throughout the last several years of planning, states have clearly 
identified potential obstacles and challenges surrounding the 
implementation of FirstNet, primarily issues of coverage, cost and 
consultation. For governors, these factors are critical considerations 
in developing a nationwide public safety broadband network that 
enhances emergency response and is sustainable over the long term. My 
testimony today will focus on these three issues. Before I go any 
further, however, I would like to provide some background on the 
development of state plans thus far.
State Plans and Governor Decision
    As I alluded to earlier, governors are faced with the decision to 
opt in or opt out of the FirstNet network. In the lead up to that 
decision, FirstNet and states have been engaging in a data collection 
and consultation process to prepare individual state plans. After the 
request for proposals (RFP) process concludes with the selection of 
FirstNet's commercial vendor in late 2016, state plans will be 
presented to governors and their state single point of contact (SPOC).
    This proposal will detail FirstNet and its commercial vendor's plan 
for the buildout of the radio access network (RAN) within a state. Its 
intention is to give the governor the information he or she needs to 
make the decision to opt in or opt out.
    Upon receiving the final plan, governors have 90 days to notify 
FirstNet of their decision. If they choose to opt in, there is no 
additional action required. FirstNet and its commercial vendor will 
build out the network and bear the associated cost of constructing, 
operating, and upgrading it. State and local first responders will then 
pay a user fee to access the network.\2\
---------------------------------------------------------------------------
    \2\ See 47 U.S.C. 1428(a)(1).
---------------------------------------------------------------------------
    Alternatively, governors may choose to do nothing upon receiving 
the state plan, letting the 90-day deadline for a decision lapse 
without action. According to FirstNet, this is considered de facto opt-
in. Even if governors do not affirmatively opt in, they will be 
automatically opted into having the RAN built by FirstNet and their 
commercial vendor in their state.\3\
---------------------------------------------------------------------------
    \3\ Final Interpretations of Parts of the Middle Class Tax Relief 
and Job Creation Act of 2012, Federal Register 80, no. 202 (Oct. 20, 
2015): 63506.
---------------------------------------------------------------------------
    As a third option, governors may also choose to opt out of FirstNet 
and its commercial vendor building the RAN. In that case, governors 
must notify FirstNet within 90 days of receiving the plan that they 
plan to opt-out. Then, within 180 days, they must complete an RFP, 
receive any necessary legislative approval, and submit an alternative 
plan to the FCC. States must then submit a plan to the National 
Telecommunications and Information Administration (NTIA) to lease 
spectrum and may apply for RAN construction grant funding. Opt-out 
states then have to negotiate a spectrum lease with FirstNet and, 
finally, build out their own RAN, all within the timeframes outlined in 
the statute. At any point in this process, FirstNet, NTIA, or the 
Federal Communications Commission (FCC) can deny the state's plan to 
build its own RAN.\4\
---------------------------------------------------------------------------
    \4\ Ibid.
---------------------------------------------------------------------------
    States that opt out are responsible for all building, maintenance, 
operation and upgrade costs associated with the state RAN. 
Additionally, state and local users will still have to pay a fee to 
connect to the core FirstNet network.\5\
---------------------------------------------------------------------------
    \5\ Ibid.
---------------------------------------------------------------------------
    For many states, the opt-out scenario is a false choice. Though 
there are a number of unknowns associated with opting in, very few 
states are in a position to consider taking on the unknowable and 
likely significant financial liabilities associated with building, 
operating, maintaining, and upgrading a full RAN in their states if 
they opt-out.
Coverage
    Going back to my three points of focus for today--coverage, cost 
and consultation--a primary concern for governors is the network's 
ability to offer sufficient and reliable coverage statewide. 
Specifically, they are concerned with how extensive coverage will be in 
rural areas and how it will differ from commercial options. This is a 
particular concern in states with substantial rural areas and in those 
with challenging geography and topography. Questions that must be 
adequately answered in the state plan for governors to make a fully 
informed decision to opt in or opt out include:

  <bullet> What service will be offered in rural areas?

  <bullet> When will it be offered?

  <bullet> What are estimates of the cost of that service?

    During the data collection phase of consultation, states provided 
FirstNet extensive data and maps detailing their unique coverage needs 
and challenges, including areas of critical concern for state and local 
first responders. FirstNet has said it has a duty to protect excess 
fees generated from densely populated areas to fund the network's 
buildout in rural areas. According to FirstNet, this approach ensures 
resources are available to build out and maintain the network in rural 
areas, where fees generated from the user base would otherwise be 
insufficient.\6\ However, the financial needs of the network must be 
balanced with the needs of the public safety community in underserved 
areas.
---------------------------------------------------------------------------
    \6\ Further Proposed Interpretations of the Parts of the Middle 
Class Tax Relief and Job Creation Act of 2012, Federal Register 80, no. 
49 (Oct. 20, 2015): 13348.
---------------------------------------------------------------------------
    Additionally, the FirstNet RFP outlines a number of rural buildout 
milestones that any commercial vendor must meet. The final milestone 
calls for achieving 100 percent of a vendor's proposed coverage in 
rural areas within five years of the contract award.\7\ Including these 
milestones in the RFP provides evidence of FirstNet's statutorily 
required consideration of rural needs; however, until states have a 
clear understanding of what the contractor's proposed coverage looks 
like, the milestones are essentially meaningless. Without additional 
information, the milestones offer no assurances of widespread and 
reliable coverage.
---------------------------------------------------------------------------
    \7\ FirstNet Solicitation No. D15PS00295--Section J, Attachment J-
8, IOC/FOC Target Timeline, (Jan. 13, 2016), 5.
---------------------------------------------------------------------------
    Many states have existing contracts with commercial communication 
providers that offer some coverage in these areas. In the state plans, 
FirstNet will need to show governors that their proposed coverage 
provides a value-add over existing commercial options, both in terms of 
user cost and coverage reliability.
    Finally, states are concerned that the costs associated with 
building and maintaining a network with sufficient rural coverage will 
drive a significant increase in user fees, which will then have an 
impact on the rural communities that need this coverage. In building 
this network and structuring user fees, states must be assured that 
sufficient coverage will not lead to burdensome user fees for resource-
scarce state and local first responders.
Costs
    In addition to concerns about coverage, questions of cost top the 
agenda of many governors and state policymakers. Governors are 
concerned about (1) what the user fees to connect to the network will 
be; (2) whether the network can be built within existing cost models; 
and (3) what any long-term administrative management and operation 
costs may be. States understand that these questions cannot be answered 
at this time. However, they expect increased clarity from FirstNet and 
its commercial vendor before deciding whether to opt in.
    Chief among states' concerns is the user fee structure. It is 
expected that FirstNet will reinvest user fees into maintaining and 
upgrading the national network. Given the size and scope of this 
network, supporting it will require significant financial investment 
throughout its lifecycle.
    The financial models that underpin the network's long-term 
sustainability require a robust and diverse user base. If fees are too 
high and public safety users do not utilize the network, the financial 
success of the network could be in jeopardy. States remain concerned 
that this could lead to user fees in excess of the amount currently 
spent on public safety communications technology.
    States and municipalities operate within constrained budgets, and 
user fees for this network remain largely unknown. Additionally, 
municipalities have vastly disparate budget requirements. In other 
words, what one city can afford may be far different from what another 
can. In particular, this affects rural communities, which frequently 
operate in a severely constrained budget environment.
    There are also significant questions as to how the FirstNet user 
fees will compare with existing commercial user fees. Where commercial 
providers can offer a similar service at a lower cost, users will be 
less inclined to utilize FirstNet's services. Again, though states 
recognize these questions cannot be answered at this time, these 
concerns factor significantly into the governor's decision-making 
process.
    Beyond user fees, governors seek further assurance that states will 
not incur unforeseen costs from FirstNet down the road. FirstNet has 
asserted that if states make the decision to opt in to the network, the 
costs associated with building and maintaining the network will be the 
sole responsibility of FirstNet and its commercial vendor. Given the 
unprecedented nature of building and maintaining a network of this size 
and complexity, states are concerned about the possibility of 
unforeseen costs being shifted to them. Though the costs of opting out 
of the network are almost certain to be greater than opting in, 
governors will have to consider this financial uncertainty as they 
weigh their decision to opt in or out.
    Finally, states are also grappling with the difficulty of 
determining the operational and administrative costs that will be 
incurred by state communications agencies when operating on the 
FirstNet network. Operating a statewide communications network requires 
significant administrative and personnel costs, and this will certainly 
be the case when FirstNet is fully deployed. Costs may include 
purchasing new equipment or upgrading existing equipment to fully 
utilize the services offered on the network. States must consider how 
those costs compare with existing commercial solutions and current 
state systems.
Consultation and Partnership
    That brings me to my last point: consultation. Throughout the 
mandated consultation and data collection process, FirstNet has engaged 
state leaders on the planned buildout of the nationwide network. 
However, states have had some concerns regarding the tone of this 
engagement. As NGA has previously emphasized, FirstNet must view states 
as partners in this endeavor. The reason for that is not only to meet 
the statutory requirements for state consultations, but more important 
to ensure that key information, processes and expertise within states 
can be appropriately brought to bear on the full range of FirstNet 
activities.\8\
---------------------------------------------------------------------------
    \8\ Governor Martin O'Malley and Governor Mary Fallin, ``FirstNet 
Hearing Letter to Chairman Greg Walden and the Honorable Anna Eshoo,'' 
(Mar. 13, 2013), available at: http://www
.nga.org/cms/home/federal-relations/nga-letters/homeland-
security_public-safety/col2-content/main-content-list/march-13-2013-
letter_firstnet.html.
---------------------------------------------------------------------------
    Since 2013, FirstNet has engaged in extensive consultation with 
state, local, county and tribal leaders across the Nation. However, 
some states have described this engagement as largely focused on 
satisfying the statutory consultation requirement, rather than 
developing genuine partnerships with states. Further, some states 
remain concerned they are viewed as mere customers of an eventual 
national broadband network. During the consultation process, FirstNet 
refers to states as ``constituents.'' Althought this may appear to be 
mere word choice, it alters the tenor of the engagement and lessens the 
focus on partnership. For the network to succeed, states must be viewed 
as full-fledged partners.
    Additionally, outreach to states must be done in a consistent 
fashion and should rely on the existing Single Point of Contact network 
that was developed at the outset of this process. Communication with 
senior state leaders outside of this framework may result in mixed 
messages and duplicative efforts within states. Using this network is 
the most effective way for FirstNet to reach governors and their senior 
staff. Going through these channels ensures that all the necessary 
information is available for governors to make their decision.
    Finally, transition in gubernatorial administrations with the 
coming election cycles presents a communication and education challenge 
for FirstNet. Given the long-term timeline associated with building 
this network and delivering services, FirstNet should ensure it is 
prepared for eventual turnover in a number of governors' offices, 
including key homeland security, public safety, and information 
technology staff during the 2016, 2017 and 2018 election cycles.
Conclusion
    Governors appreciate the support of this committee in ensuring 
progress toward implementation of a nationwide public safety broadband 
network. If implemented in a manner that ensures maximum coverage at a 
reasonable, certain, and fair cost to states, and with a consultation 
process focused on establishing partnerships, FirstNet has the 
potential to enhance the ability of first responders to protect states 
and localities from harm and provide timely responses to requests for 
emergency assistance.
    On behalf of the National Governors Association and our members, 
thank you for the opportunity to testify. Governors and NGA stand ready 
to work with this committee to ensure the successful implementation and 
deployment of a national public safety broadband network for first 
responders.

    Senator Wicker. Well, thank you very much.
    General Logan.

  STATEMENT OF MAJOR GENERAL ARTHUR J. LOGAN, HAWAII ADJUTANT 
                    GENERAL, STATE OF HAWAII

    General Logan. Chairman Wicker, Ranking Member Schatz, all 
the Members of the Senate committee, thank you very much for 
the opportunity to be here today. I'm Major General Arthur 
Logan. I'm the Adjutant General for the State of Hawaii, and 
the Governor appointed me as the State's single point of 
contact for FirstNet in January 2015. And when he first called 
me the ``SPOC,'' I had to think back to Star Trek in 1970s and 
I had to touch the top of my ears to make sure they weren't 
pointed. But I gather they're rounded, so everything was good.
    [Laughter.]
    General Logan. But I'm also the Director of Emergency 
Management and I'm the Homeland Security Adviser to the 
Governor. And if that's not enough, I also oversee the Hawaii 
Army and Air National Guard. From those perspectives and my 20 
years of law enforcement experience, I want to share with the 
Members of this committee the importance of FirstNet.
    At the time I was appointed in January 2015, the team had 
already been engaged in Hawaii in preparing for the deployment 
of FirstNet. Much of the effort focused on education and 
outreach to public safety and public policy stakeholders as 
well as working toward establishing governance, a Governor's 
model, and strengthening Hawaii's current public safety 
communications infrastructure.
    My first year and a half on the job involved briefings from 
key staff in Hawaii, meeting with FirstNet leadership, and 
attendance to the biannual FirstNet SPOC meetings and leading 
State efforts to develop key public safety communications 
plans. So let me just cover a few of the brief activities.
    Hawaii sponsored the first FirstNet forum for non-
contiguous states and territories in July 2014. So Hawaii had 
the foresight to anticipate the needs and concerns of non-
contiguous states, such as Hawaii, Alaska, Guam, American 
Samoa, the Commonwealth of the Northern Mariana Islands, Puerto 
Rico, and Virgin Islands. And we know we're different than our 
sister states of the Lower 48, who are connected by borders and 
could share coverage.
    To that end, in 2014, Hawaii sponsored the first ever non-
contiguous states and territories meeting on the island of 
Kauai. The attendees included policymakers in government and 
public safety and communication subject matter experts from 
Hawaii and Alaska and the territories from the Virgin Islands, 
Puerto Rico, Guam, and American Samoa.
    FirstNet's leadership and the leadership of the Department 
of Homeland Security, Office of Emergency Communications, 
walked participants through the evolution of technologies used 
in public safety communications, from the current standard of 
land mobile radios to the future of public safety broadband. 
FirstNet heard directly from these jurisdictions and actively 
participated in our dialog.
    A year later, in July 2015, Governor Ige and I sponsored 
executive level FirstNet briefings. We invited the CEO, T.J. 
Kennedy, and the Director of Government Affairs, Ed Parkinson, 
who flew to Hawaii and engaged in the Governor's Cabinet to 
bring the new leaders up to date on the concept of FirstNet and 
how it may add value to public safety in Hawaii.
    And then in August 2015 was our FirstNet State 
consultation. FirstNet brought its technical and state plan 
staff to Hawaii for a day and a half meetings with all Hawaii 
stakeholders. While FirstNet updated the attendees on the 
progress of the project, Hawaii stakeholders of over 90 county, 
State, and Federal partners also had the opportunity to inform 
FirstNet directly about the challenges in public safety and 
communications that arise in Hawaii.
    Over the time of the meeting, there was an active 
participation by the community, and good questions were 
generated. It was said that it's the first meeting I've been to 
in Hawaii where people stayed the whole time, they were not out 
on the beach enjoying the fine weather.
    Later on, the FirstNet environmental team came out to 
Hawaii and proposed a problematic environment impact statement, 
held public meetings on Oahu, and shared their findings to the 
public.
    And, last, data submissions. We've worked within our state, 
county, public safety, and community throughout Hawaii to 
supply FirstNet with a great deal of data regarding specific 
communications needs for public safety throughout the State, 
and FirstNet will use that data in putting together our state 
plan.
    So in conclusion, as the State's single point of contact, 
I'm grateful to the Committee for the opportunity to share 
Hawaii's perspectives and look forward to any questions.
    Thank you.
    [The prepared statement of General Logan follows:]

         Prepared Statement of Major General Arthur J. Logan, 
                Hawaii Adjutant General, State of Hawaii
    Chairman Wicker and Ranking Member Schatz, and all Members of the 
Senate Commerce Committee subcommittee on Communications, Technology, 
Innovation and the Internet, I would like to thank you for the 
opportunity to appear before this subcommittee to provide the 
perspective of the State of Hawaii with regard to the progress of 
FirstNet.
    I am Major General Arthur J. Logan, Adjutant General for the State 
of Hawaii. Governor Ige appointed me as the State Point of Contact 
(SPOC) for FirstNet, a designation I have held since January 2015. I am 
also the Director of Emergency Management, and the Homeland Security 
Advisor to the Governor, and if that isn't enough, I also oversee the 
Hawaii Army and Air National Guard. From those perspectives, and my 
twenty years of Law Enforcement experience, I want share with members 
of this committee the importance of a Nationwide Public Safety 
Broadband Network (NPSBN), also referred to as FirstNet.
    Background: At the time I was appointed Adjutant General in January 
2015, Hawaii's team was already engaged in preparing for the potential 
deployment of FirstNet in Hawaii. Much of that effort was focused on 
education and outreach to public safety and public policy stakeholders, 
as well as working toward establishing a governance model to strengthen 
Hawaii's current public safety communications infrastructure. My first 
year and one-half on the job involved briefings from key staff in 
Hawaii, meetings with FirstNet leadership, attendance at the bi-annual 
FirstNet SPOC meetings and leading state efforts to develop key public 
safety communications plans.
    Provided below is a brief summary of activities in Hawaii to engage 
stakeholders:

  1.  Hawaii Sponsored FirstNet Forum for Non-Contiguous States and 
        Territories in July 2014. Hawaii had the foresight to 
        anticipate that the needs and concerns of the non-contiguous 
        states (HI and AK) and territories (GU, AS, CNMI, PR, and VI) 
        were different than those of sister states on the mainland. To 
        that end, in 2014, Hawaii sponsored the first ever meeting of 
        the non-contiguous states and territories in the county of 
        Kaua`i: ``Bodies of Water/Bodies of Land: The NPSBN 
        Challenge''. Attendees included policy makers in government and 
        public safety and communications subject matter experts from 
        Hawaii and Alaska and from the territories of the U.S. Virgin 
        Islands, Puerto Rico, Guam, American Samoa, and the 
        Commonwealth of the Northern Marianna Islands. FirstNet 
        leadership and leadership of the Department of Homeland 
        Security Office of Emergency Communications (DHS/OEC) walked 
        participants through the evolution of technologies used in 
        public safety communications, from the current standard of land 
        mobile radios to the future of public safety broadband. 
        FirstNet heard directly from these jurisdictions and actively 
        participated in dialogue with leadership as to the challenges.

  2.  Governor Ige Sponsored an Executive level FirstNet briefing to 
        his new cabinet appointees in July 2015. As the newly elected 
        Governor, Governor Ige felt it important to have key cabinet 
        directors understand FirstNet and its importance to public 
        safety. FirstNet CEO TJ Kennedy and the Director of Government 
        Affairs, Ed Parkinson, flew to Hawaii and made a presentation 
        to the Cabinet to help bring these new leaders up to date on 
        the concept of FirstNet, and how it may add value to public 
        safety in Hawaii.

  3.  FirstNet State Consultation Meeting, August 2015. FirstNet 
        brought its technical and state plan staff to Hawaii for the 
        day and one-half meeting with Hawaii stakeholders. While 
        FirstNet updated the attendees as to the progress of the 
        project, Hawaii stakeholders (over 90 from the counties, state 
        agencies, Federal partners), also had the opportunity to inform 
        FirstNet directly about the challenges in public safety 
        communications that arise in Hawaii. Over the time of the 
        meeting, there was active participation by the community and 
        good questions were generated. It was said that ``it's the 
        first meeting I've been to in Hawaii where people stayed for 
        the whole time!''

  4.  Programmatic Environmental Impact Statement (PEIS). The FirstNet 
        Environmental team prepared a PEIS report and held a public 
        meeting in O`ahu to share findings with the public. The Report 
        was sent for public comment as well.

  5.  Data submissions. We have worked with our state and county public 
        safety community throughout Hawaii to supply FirstNet with a 
        great deal of data regarding the specific communications needs 
        of public safety throughout the State. FirstNet will use this 
        data in putting together the State Plan for Hawaii.
Opportunities Created
    Governance: Good governance means support of innovation. As we 
stand up strong governance for our current environment, the foundation 
is laid for governance of FirstNet in Hawaii. Hawaii formed the 
Statewide Interoperable Communications Executive Board (SIEB); the 
focus of which is specifically public safety interoperable 
communications. We look to build upon its charter to include planning 
for FirstNet and considering Cyber challenges.
    Focus on Public Safety Communications: Hawaii is focusing now, more 
than ever, on public safety communications. FirstNet precipitated that 
discussion.
    National Governors Association (NGA) Policy Academy on Public 
Safety Interoperable Communications: As one of five states selected to 
participate in the NGA Policy Academy, sponsored in collaboration with 
DHS/OEC, the Governor tasked me to further develop a Governance entity 
that will drive the success of our public safety communications 
operations, both in our current environment of land mobile radios and 
into the future with FirstNet/public safety broadband.
    Federal Communications Commission (FCC): Working on FirstNet has 
opened the door to opportunities to better understand the role of this 
regulatory body in all aspects of our communications environment.
    State E911 Board: My office is forging a collaborative relationship 
with the State E911 Board to look at synergies among stakeholders.
    Statewide Communications Interoperability Plan (SCIP) and SCIP 
meetings: Stakeholder driven meetings to discuss, in the context of the 
big picture of homeland security, how our communications system(s) are 
working, where are the gaps, what are the strengths--all of these are 
elements of planning for FirstNet.
The Governor and State role in FirstNet
    These and similar efforts around the country assist FirstNet in the 
development of State Plans. Once an individual state plan is developed 
by FirstNet and presented to a state, the governor has the critical 
role of accepting the FirstNet plan for network coverage within the 
state--known as ``opt-in''--or deciding to seek approval and funding 
for construction of an alternative radio access network (RAN)--known as 
``opt-out.''
    Opt-in/opt-out: There is no decision nor a basis for the decision 
at this time. Hawaii will work with FirstNet in the development of the 
State plan as long as the dollars are available to support staff. The 
State intends to continue collaborating with other states now issuing 
requests for information; we believe such information will help Hawaii 
develop its own business plan and more fully inform our review of a 
proposed state plan.
    Funding: There is not enough money available to perform due 
diligence on the Hawaii State Plan that will be provided by FirstNet. 
Hawaii's Federal grant dollars for FirstNet will likely be exhausted 
before receipt of the draft state plan expected in the first or second 
quarter of 2017. The Federal formula for allocating money to the states 
consistently understates the cost of travel for stakeholders in Hawaii 
where counties are separated by water, the cost to attend meetings on 
the mainland is exorbitant, and there is a lack of full time resources 
to perform the type of work needed to prepare an informed 
recommendation to the Governor with regard to a decision to ``opt-in'' 
or ``opt-out.'' We want to ensure that the Plan provides the necessary 
coverage in all areas of the state, including rural and high risk 
areas, such as tourist locations and port facilities. Thus, Hawaii 
believes FirstNet should make available additional funding for the 
state so we can properly evaluate our state plan before its 
presentation to the governor for a decision. Such funding will allow 
for a truly collaborative effort in the design of the state plan to 
best serve our public safety stakeholders.
Issues Specific to Hawaii
    Relevant Information Meetings are not held in Hawaii: Hawaii is a 
remote and beautiful archipelago in the middle of the Pacific Ocean 
with its some 1.2 million inhabitants. Holding relevant national 
meetings in the state, which would help educate our constituents, is 
frowned upon. It is often said: ``we can't meet there; it's the 
optics.'' On the other side, there is inadequate funding to send our 
stakeholders to the types of meetings that will help increase their 
skills and knowledge. This may present a challenge to deployment of 
FirstNet.
    Geographical Diversity. Hawaii has urged FirstNet to consider the 
isolated nature, diverse geography and unique characteristics of the 
State in designing a solution to meet the public safety broadband 
requirements. Hawaii is the most isolated population center on the face 
of the earth with almost 2,400 hundred miles of ocean separating Hawaii 
from the west coast of the continental United States.
    The Hawaiian Archipelago consists of scattered points of land 
stretching over 1,600 miles, making communications extremely important 
and difficult. As a chain of islands, Hawaii does not have an adjoining 
state to share support and coverage.
    Hawaii has four counties that encompass the eight named islands. 
The State Capital and largest city is Honolulu, located on the island 
of Oahu. The consolidated City and County of Honolulu includes an urban 
area on Oahu with a population of approximately one million. Although 
Honolulu is a densely populated urban center, there are many rural 
areas of low population throughout the State. Such areas have critical 
public safety needs that require the same access to FirstNet.
    Tourism: Tourist population impacts state services. Each day, on 
average, the State entertains some 300,000 tourists from all over the 
world. Many enjoy the natural beauty of Hawaii by visiting beaches, 
mountains, hiking trails and remote areas throughout the state. 
Accidents, medical incidents, and other public safety emergencies 
involving tourists are inevitable and must be dealt with effectively by 
public safety responders.
    Military: Hawaii also houses approximately 70,000 military 
personnel from all branches of the Armed Forces stationed at bases 
throughout the State. Protection of Hawaii's Critical Infrastructure 
Sectors, including the Hawaii's port facilities is essential as some 80 
percent of all Hawaii's goods and commodities flow through our harbors.
    Weather: According to the National Oceanic and Atmospheric 
Administration (``NOAA''), Hawaii is the state at greatest risk from 
hurricane, tsunami, severe flooding, high surf, and volcanic activity. 
Many of our inhabitants live in remote areas where communications and 
response will be extremely difficult.
    Hawaii public safety responders include the whole community. In an 
emergency, first and secondary responders, such as utilities and non-
governmental organizations, are a crucial part of the communications 
community. This is a consideration we will look for in the FirstNet 
State Plan.
Conclusion
    As the State Point of Contact for Hawaii, I am grateful to the 
Committee for the opportunity to share the Hawaii perspective with 
regard to FirstNet. We will continue to work toward educating our 
stakeholders and reinforcing our current public safety communications 
infrastructure to prepare to be a part of the first Nationwide Public 
Safety Broadband Network, also known as FirstNet. We are pleased to 
have a good team in Hawaii dedicated to the best interests of our 
community.

    Senator Wicker. And thank you very much.
    And, Mr. Katsaros.

       STATEMENT OF ANDREW KATSAROS, PRINCIPAL ASSISTANT

          INSPECTOR GENERAL FOR AUDIT AND EVALUATION,

             U.S. DEPARTMENT OF COMMERCE OFFICE OF

                       INSPECTOR GENERAL

    Mr. Katsaros. Good morning, Chairman Wicker, Ranking Member 
Schatz, and distinguished members of the Subcommittee. Thank 
you for providing me the opportunity to talk to you today about 
FirstNet more than 4 years since the passage of the Act that 
established the authority. I appreciate the invitation to be 
here to discuss this important topic.
    I am the Principal Assistant Inspector General for Audit 
and Evaluation at the Department of Commerce Office of 
Inspector General. Our testimony today will focus on three 
areas that we have identified as ongoing risks that FirstNet 
will face. We believe that these challenges will become 
apparent during their efforts to ensure implementation of a 
nationwide interoperable wireless broadband network for the 
public safety community. Specifically, these three areas of 
risk include: one, acquisition management; two, consultations 
with states and other localities; and three, internal control. 
Our office believes that if these three areas of short- and 
long-term risk are not addressed between now and the launch in 
approximately midyear 2018, the implementation may not succeed.
    The first of the three topics I would like to discuss is 
that FirstNet must effectively manage its acquisitions. The 
deadline for bidders responding to FirstNet's request for 
proposal has passed, and they plan to issue a final award as 
soon as November of this year. The approach to final issuance 
of this award may prove difficult with everything left to 
accomplish, and we believe that this schedule is aggressive. We 
also believe that successfully managing the request for 
proposal, including evaluating vendor proposals and avoiding 
conflicts of interest, is critical to the development and 
implementation of the network, and in executing that 
implementation, we believe that FirstNet will face geographical 
challenges in providing service to all 56 states and 
territories at a competitive cost. Finally, for FirstNet to 
succeed, multiple Federal agencies will have to collaborate 
efficiently over the 25-year term of the complex contract.
    The second topic I would like to discuss is that effective 
consultation with states and other localities is critical to 
FirstNet's success. The Act requires FirstNet to consult with a 
variety of stakeholders as it builds a network, including, but 
not limited to, Federal, State, tribal, and local public safety 
entities. FirstNet has made progress in its discussion and 
outreach efforts in a variety of ways, to include conducting 
visits with 55 states and territories, attending conferences, 
speaking at tribal gatherings, attending national public safety 
association events and State-hosted outreach meetings, working 
with law enforcement leaders, and engaging in social media. For 
the network to succeed, we believe that FirstNet must continue 
its consultation and outreach efforts to identify public safety 
needs. While doing this, FirstNet must use input from its 
consultations to develop individual plans for each State and 
territory which uniquely satisfy their needs.
    And, finally, the third potential risk I would like to 
discuss is that FirstNet must continue to strength its internal 
control. In each of our audit reports, we have identified 
control weaknesses. Similarly, as part of FirstNet's annual 
financial statement audit, independent auditing firms also 
identified areas where controls need strengthening. When made 
aware of these issues, FirstNet management responded 
appropriately stating their plans to address the areas of 
concerns and has, in many instances, begun to implement change.
    In conclusion, our office feels that these three areas are 
short- and long-term risks to FirstNet and that the group's 
efforts to minimize the potential impacts must be both ongoing 
and attentive.
    Chairman Wicker, Ranking Member Schatz, and Members of the 
Subcommittee, thank you again for this opportunity to appear 
before you today. I ask that my testimony be entered into the 
record. And I will be happy to answer your questions.
    [The prepared statement of Mr. Katsaros follows:]

 Prepared Statement of Andrew Katsaros, Principal Assistant Inspector 
General for Audit and Evaluation, U.S. Department of Commerce Office of 
                           Inspector General
    Chairman Wicker, Ranking Member Schatz, and Members of the 
Subcommittee:

    We appreciate the opportunity to testify about the current status 
of, and challenges encountered by, the First Responder Network 
Authority (FirstNet). Our testimony today--more than 4 years after the 
passage of the Middle Class Tax Relief and Job Creation Act of 2012 \1\ 
(the Act) that established FirstNet--will focus on (1) the history of 
the organization and its work to date; (2) the Office of Inspector 
General's (OIG's) oversight efforts; and (3) ongoing risks FirstNet 
faces in their efforts to ensure implementation of a nationwide, 
interoperable, wireless broadband network for the public safety 
community.
---------------------------------------------------------------------------
    \1\ Middle Class Tax Relief and Job Creation Act of 2012, Pub. L. 
No. 112-96.
---------------------------------------------------------------------------
1. Introduction to FirstNet
Establishment and purpose
    Signed into law on February 22, 2012, the Act established FirstNet 
as an independent authority within the Department of Commerce's 
National Telecommunications and Information Administration (NTIA). The 
Act authorized up to $7 billion in funding for the establishment of an 
interoperable Nationwide Public Safety Broadband Network (NPSBN). The 
Act also provided $135 million under the State and Local Implementation 
Grant Program (SLIGP) to promote state outreach, data collection 
efforts, and planning for the NPSBN.
    The Federal Communications Commission (FCC) spectrum auction, 
completed in January 2015, raised about $45 billion--enough to cover 
the $7 billion targeted for FirstNet under the Act. FirstNet holds the 
single Public Safety Wireless Network License for use of the 700 MHz D 
block spectrum and a pre-existing block of public safety broadband 
spectrum.
Organization and implementation
    FirstNet is governed by a 15-member Board consisting of the 
Attorney General of the United States, the Secretary of Homeland 
Security, the Director of the Office of Management and Budget, and 12 
nonpermanent members, including representatives from state and local 
governments, the public safety community, and technical fields. For 
roughly the first year and a half of its existence, certain FirstNet 
Board members functioned in management roles. The Board eventually 
assembled a management team, which assumed all operational 
responsibilities. As of June 2016, a management team has been assembled 
to complete FirstNet's mission, including a Chief Executive Officer, 
President, Chief Counsel, Chief Technology Officer, Chief Information 
Officer, Chief Administrative Officer, Chief Financial Officer, and 
Chief Procurement Officer, supported by a cadre of professionals.
    So far, implementation of the NPSBN has occurred in the following 
areas:

  <bullet> Establishing an organizational structure. FirstNet hired key 
        leadership and support staff for its day-to-day operations; 
        developed controls; established its headquarters in Reston, 
        Virginia, and its technical headquarters in Boulder, Colorado; 
        awarded contracts to obtain project management and planning 
        support, professional and subject matter support, and network 
        and business plan development; and signed interagency 
        agreements with other Federal entities to provide key services.

  <bullet> Conducting initial consultation and outreach. FirstNet 
        launched a website, conducted conference calls and webinars 
        with state single points of contact (SPOCs), coordinated with 
        NTIA's SLIGP team, and established its Public Safety Advisory 
        Committee (PSAC).\2\ In July 2014, FirstNet began to hold a 
        series of state and U.S. territory consultation meetings. As of 
        May 31, 2016, initial state consultations and data had been 
        received from nearly all the states and U.S. territories. Also, 
        FirstNet has held consultations with tribal nations and Federal 
        users as well as held other discretionary outreach events 
        (speaking engagements at conferences, expositions, town hall 
        meetings and summits) in order to educate and engage 
        stakeholders from the public safety community.
---------------------------------------------------------------------------
    \2\ The Middle Class Tax Relief and Job Creation Act of 2012 
required FirstNet to establish the PSAC. It was created in February 
2013 and consists of 40 members representing all disciplines of public 
safety as well as state, territorial, tribal, and local governments. 
See ``Public Safety Advisory Committee'' at www.firstnet.gov/about/
publicsafety-advisory-committee.

  <bullet> Implementing a network solution. In January 2016, FirstNet 
        issued a request for proposals (RFP) for the purpose of seeking 
        a vendor to build and operate the NPSBN. Proposals were due by 
        the end of May 2016. Prior to issuing the RFP, FirstNet sought 
        input from vendors and other stakeholders, issuing multiple 
        requests for information (RFIs), public notices and requests 
        for comment seeking input regarding interpretations of 
        FirstNet's enabling legislation, and a draft RFP. It also has 
        spectrum lease agreements with four public-safety projects 
        funded by grants awarded via NTIA's Broadband Technology 
        Opportunities Program (BTOP) and with the State of Texas/Harris 
---------------------------------------------------------------------------
        County to provide FirstNet with lessons learned.

    FirstNet's expenditures have increased as it has moved toward 
building the NPSBN. FirstNet reported that it spent less than $250,000 
in Fiscal Year (FY) 2012. In FY 2013, it spent about $17 million. In FY 
2014, FirstNet incurred operating expenses of $24 million, and $49 
million in FY 2015. FirstNet's current focus is on consultation and the 
acquisition/RFP processes.
2. OIG's FirstNet Oversight
    FirstNet's authorizing legislation and subsequent enacted 
appropriations did not contain an explicit provision for funding 
permanent, ongoing oversight to prevent and detect waste, fraud, and 
abuse for FirstNet. In May 2014, OIG entered into a memorandum of 
understanding (MOU) under the Economy Act with FirstNet to provide 
specific oversight services that FirstNet sought, such as conducting 
oversight of FirstNet acquisition processes. Specifically, the FirstNet 
Chairman of the Board had requested that OIG review ethics and 
procurement concerns raised by a FirstNet Board member. The agreement 
was amended in November 2014, providing additional funds and extending 
the MOU through September 30, 2016. On May 27, 2016, FirstNet moved to 
terminate the MOU, which we are now closing out over a subsequent 90-
day period. This will end all FirstNet requests for OIG services. As a 
result of the cancelling of the MOU, future OIG audits of FirstNet 
programs and operations will be conducted using OIG's direct 
appropriation for general oversight--and prioritized along with the 
Department of Commerce's other 11 bureaus and agencies.\3\
---------------------------------------------------------------------------
    \3\ Commerce agencies and bureaus are made up of the Bureau of 
Industry and Security, Economic and Statistics Administration (includes 
the Bureau of Economic Analysis and U.S. Census Bureau), Economic 
Development Administration, International Trade Administration, 
Minority Business Development Agency, National Institute of Standards 
and Technology, National Technical Information Service, National 
Oceanic and Atmospheric Administration, U.S. Patent and Trademark 
Office, and NTIA.
---------------------------------------------------------------------------
    Building on OIG's experience with broadband and public safety 
programs (for example, the Public Safety Interoperable Communications 
(PSIC) grant program and BTOP), the team's initial audit and evaluation 
activities have included:

  <bullet> tracking the progress of FirstNet by regularly interacting 
        with staff members and covering agency proceedings, as well as 
        monitoring FirstNet and NTIA for key actions taken to implement 
        the network;

  <bullet> developing an initial risk assessment in FY 2013 and 
        routinely reassessing risk as part of annual Department-wide 
        assessments;

  <bullet> identifying FirstNet as a management challenge in our FYs 
        2013-2016 Top Management Challenges reports, noting challenges 
        related to procurement, internal control, staffing, and 
        stakeholder consultation; and

  <bullet> providing an information memorandum for FirstNet in February 
        2014 to identify FirstNet's initial management challenges, 
        including establishing an effective organization, fostering 
        cooperation among various state and local public safety 
        agencies, integrating existing grants to enhance public 
        communications capabilities into FirstNet, and creating a 
        nationwide long-term evolution network.

    In December, 2014, we issued our first audit of FirstNet.\4\ Our 
findings addressed financial disclosure, the monitoring of potential 
conflicts of interest, contracting practices, and oversight of hiring. 
We made nine recommendations. In our opinion, FirstNet took the 
findings seriously and has made progress towards implementing our 
recommendations. Subsequent audits covered FirstNet's hiring 
challenges, need for comprehensive planning and monitoring, and 
inconsistent implementation of controls,\5\ and identified 
opportunities to improve the effectiveness of the Federal consultation 
program, including strengthening accountability, and increasing Federal 
input.\6\
---------------------------------------------------------------------------
    \4\ FirstNet Must Strengthen Management of Financial Disclosures 
and Monitoring of Contracts (OIG-15-013-A), December 5, 2014.
    \5\ Audit of FirstNet's Workforce and Recruiting Challenges, 
Participation at Discretionary Outreach Events, and Internal Control 
(OIG-15-036-A), August 14, 2015.
    \6\ Audit of FirstNet's Efforts to Include Federal Agencies in its 
NPSBN (OIG-16-017-A), February 8, 2016.

    In March 2015, we submitted written testimony to the United States 
Senate Committee on Commerce, Science, and Transportation, which 
contained information regarding FirstNet's implementation of the NPSBN, 
the establishment of an OIG audit team dedicated to FirstNet oversight, 
and continuing challenges facing the program.\7\
---------------------------------------------------------------------------
    \7\ First Responder Network Authority's Progress and Challenges in 
Establishing a Public Safety Broadband Network (OIG-15-019-T), March 
11, 2015.
---------------------------------------------------------------------------
    In January 2016, we initiated an audit of FirstNet's management of 
interagency agreements, which provide important services such as human 
resources, financial management, and procurement and accounted for 
approximately 30 percent of incurred FY 2015 expenses. Finally, we have 
also prepared a risk-based analysis of potential future audit areas.
3. Ongoing Risks Facing FirstNet
    More than 4 years since the passage of the Act, FirstNet faces a 
wide range of short and long-term risks.
A. FirstNet Must Effectively Manage its Acquisitions
    FirstNet's award schedule is aggressive. The May 31, 2016, deadline 
for bidders responding to FirstNet's RFP has passed. FirstNet intends 
to make a final award as soon as November 2016. To meet a November 
goal, FirstNet must now have an approach to evaluate proposals 
received, including identifying qualified personnel to evaluate the 
proposals and ensuring that these personnel do not have conflicts of 
interest.
    The successful bid must meet the goals established by the RFP. 
FirstNet adopted an objectives-based approach in its RFP--rather than a 
traditional requirements-driven model--to provide industry the maximum 
opportunity and flexibility in the development of innovative solutions 
for the NPSBN. According to FirstNet, providing this flexibility 
enables offerors to illustrate their intent in their proposals to meet 
or exceed the high-level objectives illustrated within the RFP.
    As the RFP points out, FirstNet must provide services at 
competitive prices given constrained local, state, and Federal budgets. 
It must also be self-sustaining. FirstNet must leverage existing 
infrastructure, obtain optimal value for excess network capacity, and 
optimize its pricing structure in order to deliver a high-quality, 
affordable broadband network and services to the Nation's first 
responders. In addition, local emergency communications needs are 
typically met by separate networks using different technologies, and 
each jurisdiction has its own laws and procedures for building, 
managing, and funding communications infrastructure. Among the 
challenges facing FirstNet is accommodating current emergency response 
systems of localities and their future needs without compromising the 
benefits of a national network. FirstNet officials have stated that the 
evaluation process will also include negotiations with potential 
contractors. Successfully managing the RFP--evaluating vendor proposals 
and avoiding conflicts of interest--is critical to the development and 
implementation of the NPSBN.
    FirstNet is a nationwide network with geographical challenges. 
FirstNet has identified what it refers to as ``the coverage 
challenge.'' That is, the geography of the 56 jurisdictions is varied, 
with the bulk of the population residing in about 5 percent of the U.S. 
land mass. The rest of the population resides in rural and wilderness 
settings. The 3.8 million square miles to be covered by the network 
will include urban, suburban, rural, and wilderness areas, as well as 
islands. FirstNet must offer public safety grade services at a cost 
that is competitive to all users and pay particular attention to 
coverage of rural areas, a subject specifically prioritized by the Act.
    Multiple Federal Government stakeholders must effectively 
coordinate. The contract is complex and has a 25 year term. The RFP was 
issued by the Department of the Interior on behalf of FirstNet. For 
FirstNet to succeed, all parties at Commerce and Interior must 
collaborate harmoniously and efficiently over the course of a lengthy 
contract term.
B. Effective Consultation with States and Localities is Critical to 
        FirstNet's Success
    FirstNet must continue its consultation efforts to identify public 
safety needs for the NPSBN. The Act requires FirstNet to consult with a 
variety of stakeholders as it builds the network, including, but not 
limited to, federal, state, tribal, and local public safety entities. 
The Act also requires FirstNet to consult with SPOCs from each state 
and territory, and the Act authorizes the SLIGP, which provides 
resources to those states and territories to consult with FirstNet and 
plan for the NPSBN. NTIA administers SLIGP and awarded grants totaling 
$116.56 million.\8\ FirstNet must incorporate consultation input into 
an effective network design that meets public safety needs.
---------------------------------------------------------------------------
    \8\ The State of Mississippi did not receive SLIGP funds.
---------------------------------------------------------------------------
    FirstNet must use input from consultation in order to develop 
individual State Plans for each state and territory. After the 
completion of the RFP award process, a key next step is for FirstNet to 
deliver these State Plans to each governor regarding FirstNet's plan to 
deploy the Radio Access Network (RAN) within the state or territory.\9\ 
Each governor will decide whether it will opt-in to the delivered plan 
(that is, FirstNet takes on the responsibility of building the RAN) or 
opt-out (the state or territory takes on the responsibility to deploy, 
operate, and maintain the RAN within its jurisdiction.) Effective 
consultation and outreach will increase the likelihood that FirstNet 
(1) develops State Plans that meet the unique needs of the state or 
territory; (2) designs a nationwide network that receives adoption and 
support from the public safety community nationwide; and (3) provides 
effective guidance to opt-out states regarding RAN design and NPSBN 
requirements.
---------------------------------------------------------------------------
    \9\ FirstNet has estimated it will complete draft state plans 
around May 2017 and will finalize and deliver state plans by the end of 
2017.
---------------------------------------------------------------------------
    FirstNet has made progress in its consultation efforts. FirstNet 
established a state consultation process, completed initial 
consultation visits with 55 states and territories, and has begun to 
hold follow-up meetings. FirstNet received data from 54 states and 
territories to better understand their network public safety needs, 
including data on (1) network coverage, (2) users and operational 
areas, (3) network capacity, and (4) current services and procurement. 
FirstNet conducted outreach to the public safety community by, for 
example, attending conferences, speaking at tribal gatherings, 
attending national public safety association events and state-hosted 
outreach meetings, working with law enforcement leaders, and engaging 
social media. FirstNet also established a Federal consultation process 
to seek input from Federal agencies and departments across the country.
C. FirstNet Must Continue to Strengthen Its Internal Control
    As FirstNet's administrative processes have evolved to meet 
continuing challenges, it has needed to balance expediency and 
accountability. In order to meet its goals, FirstNet has grown 
rapidly--Federal employees and contractors increased from 123 to 198 in 
FY 2015.\10\ And adding to its many challenges, FirstNet is limited by 
the Act to a maximum of $100 million for administrative costs over a 10 
year period.
---------------------------------------------------------------------------
    \10\ FirstNet, February 2016. FY 2015: Annual Report to Congress, 
p. 7.
---------------------------------------------------------------------------
    The Government Accountability Office (GAO) has defined internal 
control as ``. . .a process effected by the entity's oversight body, 
management, and other personnel that provides reasonable assurance that 
the objectives of the entity will be achieved. . ..'' \11\ GAO 
recognizes that internal control procedures can be operational-, 
reporting-, or compliance-based.
---------------------------------------------------------------------------
    \11\ GAO, September 2014. Standards for Internal Control in the 
Federal Government, GAO-14-704G, OV1.01, p. 5.
---------------------------------------------------------------------------
    OIG and independent audit firms have identified areas for 
improvement. FirstNet continues to implement and strengthen internal 
control throughout the organization; however, opportunities for 
improvement remain. In each of our FirstNet audit reports, OIG has 
identified areas needing improvement, specifically in regards to 
processes and controls. These reports have resulted in numerous 
recommendations for improvement across FirstNet and the Department of 
Commerce. Similarly, independent auditing firms, as part of FirstNet's 
required yearly audit,\12\ have identified areas where FirstNet 
controls needed strengthening. The Independent Auditor's report for FY 
2014 and 2015 noted that Commerce's annual financial statement audit 
included findings regarding information system access and configuration 
management, which the auditor noted as a FirstNet significant 
deficiency due to its reliance on Commerce information systems. It 
recommended that FirstNet develop a general ledger transaction review 
processes to compensate for the deficiency. In all instances, FirstNet 
management responded appropriately, stating their plans to address the 
issues.
---------------------------------------------------------------------------
    \12\ See 47 U.S.C. Sec. 1429.
---------------------------------------------------------------------------
    FirstNet has, in many instances, begun to implement changes to its 
process prior to issuance of the reports, and OIG has reviewed and 
accepted FirstNet's action plans addressing all report findings.
    FirstNet has taken steps to improve internal control. At the March 
16, 2016, meeting of the Board, FirstNet's Chief Financial Officer 
reported the actions FirstNet has taken to improve its internal control 
process included:

  <bullet> Adoption of an Internal Control Implementation Plan

  <bullet> Completion of its first risk assessment

  <bullet> Enhancement of FirstNet's financial management procedures

  <bullet> Development of a Core Assessment Team to evaluate internal 
        controls

    FirstNet faces additional award challenges. For example, FirstNet 
must prudently manage the Band 14 Incumbent Spectrum Relocation Grant 
Program, established to clear spectrum for the NPSBN. FirstNet has 
begun the process for awarding grant funds to public safety entities. 
In addition, as a fairly new organization requiring extensive travel 
and small purchases, travel and procurement card expenditures pose a 
risk.
    FirstNet has noted several upcoming milestones for the deployment 
of the NPSBN. See figure 1. As FirstNet moves towards these next phases 
of implementing the NPSBN, continued improvement and oversight of 
FirstNet's processes will be critical.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Source: FirstNet, March 2016 Board Meeting

    We will continue to keep the Committee informed of FirstNet's 
progress with respect to the challenges discussed here--and any others 
we identify through our audits and investigations.
    I will be pleased to take your questions.

    Senator Wicker. Well, thank you very, very much. And let's 
do 5-minute rounds of questioning.
    Mr. Poth, let's talk about the fact that $7 billion doesn't 
go as far as it used to go. The $7 billion really was startup 
fundings not intended to sustain the network for very long. 
With vastly rural populations having differing emergency needs, 
what challenges do you have there, and what are your thoughts 
about covering the rural areas of this Nation? And also with 
regard to that, once FirstNet is deployed, it's going to charge 
user fees. Do you think the user fees will generate enough 
revenue to sustain FirstNet? And is this going to be a problem 
for rural areas in terms of a cost burden?
    Mr. Poth. Thank you very much for the question. And you're 
exactly right, Senator Wicker, $7 billion doesn't go as far as 
it used to.
    So what we have done with the $7 billion, but more 
importantly, the 20 megahertz of spectrum that Congress gave 
FirstNet, that becomes the true value prop to then sit at the 
table with a partner to come together with their assets and our 
assets, and we believe the 20 megahertz of spectrum is 
beachfront property, and we should and will maximize the value 
of that for public safety. We expect that the commercial 
partners will come with X amount of capital on their side to 
start the nationwide buildout of the broadband network.
    Part of the components that we've built into the RFP also 
we are not satisfied just to attack the densely populated 
areas, we are also very focused on the rural coverage. And even 
though it's a statutory requirement, we've built into the RFP 
that every phase of the buildout, at least a rural coverage 
component, will be contained in there.
    We expect our commercial partners, who are typically 
incentivized, by only going out as far as economically 
feasible, we'll have to look at that mandate, and we're 
expecting, through the responses, exactly what the coverage 
components can be.
    We've also required in the RFP with each phase of the 
build-out rural coverage components with by the fifth year of 
the build-out, 100 percent of what they have proposed in rural 
coverage will be accomplished.
    We've also, to address concerns about cost out in the rural 
areas, we are driving in through the RFP, and with our partner 
for public safety, preferred pricing, and we expect the 
commercial partner to be very successful, and we hope that they 
are, in commoditizing the excess spectrum on the commercial 
side that will keep the fees and the revenues coming into 
FirstNet for not only the sustainability but also keep the 
costs down for public safety users, whether they're in rural, 
urban, or suburban areas.
    So we think with all those various factors together, we 
have provided a platform for success for both the public safety 
and the partner to be successful on this contract.
    Senator Wicker. OK. Well, continue to keep us posted on 
that.
    You know, in the 1 minute 42 seconds remaining, I don't 
know if I can ask you to respond to Mr. Katsoros's testimony, 
but he did mention some concerns, no doubt about it, 
particularly about FirstNet continuing to strengthen its 
internal control, and I think the clear message is that it's 
not where it needs to be. That's the way I took the testimony.
    So let me ask you, what--your team has participated in 
outreach efforts throughout the country to assess the needs of 
each State. What do you--do you believe the decisionmaking 
process, as it stands today, is as good as it should be?
    Mr. Poth. There is obviously room for improvement in 
anything that you do, but I'll make a run at trying to answer 
some of the concerns. So on the acquisition management, we have 
a very rigorous process in place to ensure that the ultimate 
evaluation----
    Senator Wicker. Well, let me just--let's go then to the one 
that I specifically mentioned----
    Mr. Poth. OK.
    Senator Wicker.--which FirstNet must continue to strengthen 
its internal control. And I do believe I've characterized the 
testimony as that it's not where it should be.
    Mr. Poth. Right. I think we believe that the internal 
controls that have been in place, and thanks to the work of 
working collaboratively with the Inspector General, we've 
instituted even more rigor in the internal controls and audits, 
both within FirstNet with compliance committee reviews, people, 
and processes, we've strengthened those, and with the Inspector 
General's audits, I think we believe now that the controls that 
are in place are allowing us to be successful for the future, 
for the partnership going forward.
    Senator Wicker. And do you think the decisionmaking 
process, as it stands today, is as good as it should be?
    Mr. Poth. I believe so. I have a very strong team that I'm 
extremely proud of, and I'm buffered by a Board of Directors 
that the statute is enabled that takes expertise from both the 
Federal Government, from the wireless community, and financial 
communities, and when you bring those two together, I think the 
decisionmaking process is solid. Obviously, as we are forging 
new territory, there may be twists and turns, but I am fully 
confident with the team that is in place, we'll be able to 
navigate those turns.
    Senator Wicker. Thank you very much.
    Senator Schatz.
    Senator Schatz. Thank you, Mr. Chairman.
    My first question is for Mr. Poth. Mr. McLeod, from NGA, 
talked about sort of a ``choice of words'' question with 
respect to whether or not states and Governors and single 
points of contacts are constituents or partners. And as a 
former Lieutenant Governor and a former member of the State 
administration, I'm kind of sensitive to that on behalf of 
State governments. And I would just like your assurance that 
you're listening to Mr. McLeod, and by virtue of listening to 
Mr. McLeod, hearing that concern, and that we have your 
commitment working on a going-forward basis with the State 
administrations and TAGs and others that we really are going to 
be in a partnership situation rather than sort of a grantee/
grantor relationship.
    Mr. Poth. No, absolutely. The states and the people that 
are leading those efforts in the States for public safety and 
for FirstNet are a critical component. They are truly the tip 
of the spear of what we're trying to enable, and the 
partnership is very, very important to us. We spend a lot of 
time trying to overcommunicate to the States. We don't view 
them as constituents, but they are critical partners, just like 
public safety and just like our Federal partners.
    Senator Schatz. Thank you. And to General Logan, and this 
is to the question of opting in versus opting out. What Mr. 
McLeod said was essentially that under the statute, opting out 
is a mirage. I don't know if that's an overstatement or not, 
but that's the gist of it, it is very tough to opt out. So I 
want to actually focus on opting in. I understand you went 
through a pretty good process with Governor Ige and your team. 
And I would like you to kind of explain how you came to opting 
in and how much support you thought you got from FirstNet in 
that process.
    General Logan. Senator, thank you very much for the 
question. I would say, going back to one of your--the earlier 
question, when FirstNet came out to brief the Governor's 
Cabinet, I kind of got with the team beforehand and I sat down 
and gave some of the interesting nuances of localism and how 
we, in Hawaii, perceive people that come from D.C. into our 
state, and I asked them not to wear a suit and tie, I asked 
them to come in an Aloha shirt when they briefed the Governor, 
and they did that. And so that kind of warmed over the crowd.
    Senator Schatz. We appreciate that.
    [Laughter.]
    General Logan. Yes. But also back to this question, I think 
after they presented to the Cabinet, the Governor and I and 
Todd Nacapuy, the State CIO, we got together and we kind of 
went through it pretty quickly, and the Governor's background, 
I think being a telecommunications engineer and working for 
telecom companies in the state, I think it was kind of obvious 
to him that opting in was probably the best solution, although 
we have not made a final decision. We wanted to wait to see 
what our state plan is.
    Part of the issue the states are having, I think, or at 
least some of the anxiety the states are having, is we don't 
know what the RFP is yet, we don't know what the State plan is, 
so we can only guess at how we can--or what we think is going 
to happen. So without all the knowledge, it creates some 
anxiety, so states are somewhat unprepared for what may happen. 
But I think we're a lot better off than we were with all the 
communications going on, and FirstNet would be the--they'll--
they are an overabundance of communication. If you need 
something, they will answer your questions. And so they're very 
receptive to at least--I know in my State they are, and we have 
a conversation with them.
    And so I think, looking at it from the State's IT 
perspective, what we haven't done yet and what the State CIO 
and I have discussed a couple weeks ago, was meeting with some 
of the local vendors within the state, like your Verizons, your 
AT&T, and just kind of talk through that to see what their 
perspective is, and maybe we could do it all by ourselves, but 
I don't think we're there.
    Senator Schatz. Can you talk a little bit about--I know 
you've had meetings with other non-contiguous States, but I 
think some of these concerns that come through the non-
contiguous states affiliation also apply to a lot of our rural 
areas in the continental United States. Can you talk 
specifically about what the technical needs are and then how 
you see the kind of revenue distribution and maybe very 
quickly, General Logan, so I can hear from Mr. Poth as well.
    General Logan. OK. Well, I have talked to the fellow SPOCs 
from the other states that are non-contiguous states, and we 
all have generally the same issue. It's we have, you know, like 
Oahu is your center of the city and county of Honolulu. That's 
the major metropolitan area, almost a million people live 
there. But the neighbor islands, not that many, I think we have 
140,000 on the big island, maybe fifty to sixty thousand on the 
island of Kauai, and close to a hundred on Maui. So how do we--
they are generally rural areas, and so how do we guarantee 
coverage?
    One of the things I look at FirstNet is if it's good for 
the city cop, it's got to be good for the rural cop, firemen, 
and EMT. So we can't say, well, because you live in the city, 
you get first priority and we're going to get these guys last. 
That's not a fair system across the board. So we've got make 
sure public safety is covered across the board.
    Senator Schatz. And, Mr. Poth, we have your commitment to 
work on these issues, not just for non-contiguous states, but 
for rural areas across the country?
    Mr. Poth. Absolutely, and that's a basic premise of our 
revenue-sharing model.
    Senator Schatz. Thank you.
    Senator Wicker. Thank you.
    Senator Gardner.

                STATEMENT OF HON. CORY GARDNER, 
                   U.S. SENATOR FROM COLORADO

    Senator Gardner. Thank you, Mr. Chairman. And thank you to 
the witnesses for your time and testimony today.
    Obviously, the potential to revolutionize public safety 
communications is extremely important. I'm very excited that 
FirstNet shows Boulder, Colorado, as home of its technical 
headquarters. It's a great tech community in Colorado, a great 
tech corridor. Just down the road from FirstNet in Boulder, of 
course, is the National Institute of Standards and Technology, 
which is doing great work on public safety communications 
research at the Communications Technology Laboratory, so we've 
got a great tech and vibrant economy running in Colorado, and 
we appreciate you being there.
    Mr. McLeod, I want to start with you first. You, in your 
testimony, talked about FirstNet, ``must view states as 
partners rather than constituents in the consultation process'' 
and mentioned that some states don't believe FirstNet is 
interested in developing genuine partnerships with the states 
is how you said it. So following up on a little bit of what 
Senator Schatz was talking about, could you talk a little bit 
further about that point and talk about the nature of the 
meetings that you mentioned and that that nature that have 
caused the concern in developing those genuine partnerships, 
that desire to create them, and then talk about the obligation 
to take that state advice.
    Mr. McLeod. Thank you for the question, Senator. So I 
think--I will say that FirstNet stepped up their efforts over 
the last year to communicate with states, and as the General 
said, if there is a question that States have, they've been 
more than willing to answer those questions. I think my 
statement reflects the feeling among states that although they 
may be complying with the letter of the law, that at the end of 
the day, states don't feel that they are necessarily viewed as 
full partners.
    And maybe just as a quick example, during the development 
of the State plan, states will be seeing drafts of those plans, 
but the final plan that will be submitted to them, they will 
not have an opportunity really to suggest revisions or at least 
that many revisions would be made. So I think that goes to the 
sense that were it a true partnership, that states would be 
more engaged in the development of that plan beyond just the 
consultations that have been happening.
    Senator Gardner. Please continue if you have anything else.
    Mr. McLeod. No.
    Senator Gardner. Mr. Poth, do you want to respond to that? 
And then I can get back to you with an additional question.
    Mr. Poth. Sure. Part of the thing that we have to do with 
the State plans is we're going to be at that point under a 
contract with our partner. We have submitted into the RFP all 
the State data unfiltered, what each State and territory felt 
was important. We're expecting the vendor community now has 
responded in each particular state how they would go about 
deploying the network in that state, the random radio access 
network.
    We are then, as Mr. McLeod said, planning on giving a draft 
to the states so that they have plenty of time to understand 
the coverage, the cost, and what is being proposed. There are 
opportunities for feedback, but we are going to have some 
limitations since it will already be under a contract term as 
to how much variations, if a state felt it was important, but 
it is our commitment, as we've always done, to work with the 
States, and we want to provide that before we turn and have the 
state plan go final, which then starts the 90-day clock for the 
Governors because we don't want the states to be surprised at 
what the plan is with our partner.
    But Mr. McLeod is correct. There may be some limitations as 
to what changes could be done from the draft to the final.
    Senator Gardner. And I think one of the concerns that we 
have, of course, in Colorado is the geography and the 
limitations that geography can pose to coverage and the 
challenges it can pose to that coverage. So are you concerned 
at all that the approach that you're talking about would--
you're not concerned that it would undermine the State 
consultation process then.
    Mr. Poth. No.
    Senator Gardner. And if first it's not relying on that, if 
you end up with this time crunch that Mr. McLeod is talking 
about, though, and that you just identified, and you have these 
unique challenges to geography in the states, who are you 
looking for, for the expertise then to fill the gap to make 
sure that you don't have a problem?
    Mr. Poth. So if we're in the State of Colorado, for 
example, all the data and what the State committee felt was 
important, and public safety, what they felt important, was 
submitted to the vendors, and it's in the reading room, so they 
understand what the state's position is and what's important 
both in the urban and the rural areas, and the Rocky Mountains 
and those types of areas.
    What we're expecting back is how the vendor is proposing to 
facilitate all of that both with terrestrial and possibly with 
deployable coverage and what that scenario and the phasing and 
the build-out would look like for the state. We continue to 
work with all of the states, and we want to make sure that they 
understand, you know, the limitations of what may be possible 
from the contract, although we are absolutely committed to 
maximize the value for public safety in the states. There will 
be some limitations probably that we'll expect, but we're going 
to continue to work with the states.
    And the other important thing in the room is we're 
envisioning--and this will be a 25-year contract--in excess 
revenues, we are going to reinvest back into the network to 
where we can advance technology, hopefully expand the rural 
footprint, so it may not be day one that a state or a public 
safety agency gets everything they want, but we do have a 
mechanism in place to continue to fund, not only for our 
financial sustainability, but to grow the network and with the 
technology.
    Senator Gardner. Mr. Chairman, can I ask one follow-up 
question to what he just said?
    Senator Wicker. Absolutely.
    Senator Gardner. Thank you. With this revenue issue, and 
I'm just curious, the prioritization of those funds, network 
maintenance over network expansion, how will you make that 
determination?
    Mr. Poth. As the excess spectrum funds come in, we're going 
to be evaluating what's the latest technology. We're building 
in the contract that we're expecting our partner to evolve and 
change as the technology without us funding that. That is just 
part and table stakes for part of this contract. We'll then 
evaluate what the priorities are with the technological 
advancements or possibly coverage advancements.
    Senator Gardner. Thank you, Mr. Chairman.
    Senator Wicker. Thank you.
    We now--we have Daines, Fischer, and then Manchin.
    Senator Daines.

                STATEMENT OF HON. STEVE DAINES, 
                   U.S. SENATOR FROM MONTANA

    Senator Daines. Thank you, Mr. Chairman.
    I think in places like Montana technology really removes 
geography as a constraint. This extends not only to our 
businesses and our schools, but, of course, to first responders 
as well. And it's especially important in states like Montana 
and states like Colorado where we have significant rural areas, 
first responders can be 50 miles or more away from an accident. 
So the goal here, I understand, is to provide coverage in 99 
percent of the country. As we've seen with mobile wireless 
coverage, the remaining 1 percent of the country often includes 
places like Montana.
    Mr. Poth, tell me about the future plans, if any, to 
eventually cover that 1 percent of the country.
    Mr. Poth. We hope to--to expect 100 percent coverage is 
probably a very steep mountain to climb, no pun intended. With 
the coverage that's required, we're really expecting industry 
to come back and the technology to evolve to where deployables, 
satellite technology, and those types of things will enable 
public safety, especially in remote areas, to still maintain 
connectivity. The goal of getting to 100 percent coverage 
throughout the 56 states and territories I think is going to be 
a pretty aggressive goal.
    Senator Daines. And related to the issue of technology--and 
I spent a lot of years in the technology business, where it 
moves at the speed of business versus the speed of government--
as you think about the future of where it's headed, how will 
you keep at FirstNet as it relates to when technology changes? 
About the time the project is completed, I'm guessing 
technology will be well ahead of where you end.
    Mr. Poth. Right. And that's one of the big focuses and 
basic tenets of us. As an independent authority, we are going 
to continue to grow and we are going to continue to push 
technology. The mention of our labs in Boulder, we are going to 
be advancing and trying to push public safety innovation and 
technology for years to grow and with the NIST lab also focused 
on that, we believe that we are going to be able to optimize 
the benefits to public safety of what's available.
    If you can envision, we don't even know what technology is 
going to be like in 10 years. I often think--people will say, 
well, your Android or your iPhones, that was the cutting edge 
technology, because it is going to go so fast. We're going to 
have in the contract the ability to grow and push the 
technology as it goes from 3G, 4G, to 5G, and grow with it, and 
we're going to have the organization in place to remain the 
advocates and stewards for public safety with our partner so 
that they don't lose focus on what's important.
    Senator Daines. We heard today that FirstNet plans to use 
fees generated from densely populated areas to help fund the 
build-out in more rural areas. We've had similar funding 
programs like the Universal Service Fund in place since the 
1990s, and we still haven't achieved universal service. How is 
FirstNet's plan different? And why is your plan going to 
succeed when others haven't?
    Mr. Poth. We have a pretty focused mandate and mission, 
it's to serve public safety regardless of jurisdiction, 
regardless of state, and so that's one of our driving forces. 
The other thing that we are going to do is we are going to 
remain responsible and accountable to public safety. They're 
not going to let us allow for anything less than that. And our 
independent board that oversees FirstNet is also going to 
ensure for years to come that we don't lose focus on what the 
investments and what the priorities are.
    Senator Daines. As you can imagine, the broadband and the 
wireless coverage that we do have in Montana is often provided 
by our rural telecom providers, so I certainly appreciate the 
requirement that the prime contractor partner with these rural 
companies. But it's still unclear to me what accountability 
measures FirstNet has in place to ensure that these 
partnerships happen with these rural teleco providers.
    So maybe you can elaborate what plan FirstNet has in place 
to ensure that the prime contractors follow through on its 
commitment to partner with the rural providers.
    Mr. Poth. Once we have the bids that are submitted in and 
evaluated and we get to a contract award, we are going to have 
specific milestones both on the rural partnership participation 
and the coverage. Then those milestones become measurable that 
we are going to enforce, and we try to incentivize through the 
contract the right behavior, but there are disincentives to 
ensure that our commercial partner is achieving the coverage 
and the cost control measures that we've asked for.
    Senator Daines. Now, I understand the selling excess 
network capacity is key to paying for the network. How will 
FirstNet ensure that selling its capacity does not end up 
competing with our existing providers?
    Mr. Poth. We believe with the infusion of the new spectrum 
and the needs of spectrum throughout the country and all 
different bands, we think that there is going to be sufficient 
demand on all the spectrums where we don't believe that that 
will be necessarily a competition or a takeaway for those 
providers.
    Senator Daines. All right. Thank you, Mr. Poth.
    Thank you, Mr. Chairman.
    Senator Wicker. You know, it occurs to me when Members come 
before this committee, they're going to get a lot of questions 
about rural areas, and it just makes me feel very good about 
the brilliance of the Founding Fathers. They created a Senate 
that wasn't totally population based. And it's my pleasure to 
recognize now the Senator from another rural state, Senator 
Fischer.

                STATEMENT OF HON. DEB FISCHER, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Fischer. Thank you, Mr. Chairman. And I won't let 
you down, I have a couple more questions about rural areas.
    [Laughter.]
    Senator Fischer. So, Mr. Poth, I've heard concerns from 
stakeholders in Nebraska that FirstNet is going to rely heavily 
on what's referred to as deployable networks in rural areas 
rather than deploying a fixed network. For example, instead of 
building a tower in the Nebraska panhandle, perhaps FirstNet is 
going to bring in a communications vehicle to provide temporary 
coverage during an emergency.
    When we look at tornadoes and fires, all these emergencies 
that happen in very rural areas, how can we be assured that 
these deployable networks are really going to be a viable tool 
for our first responders, and can they move quickly enough to 
be useful during really these very, very critical times when we 
have to have a quick response?
    Mr. Poth. Right. What we did with the RFP, with it being 
objectives based, we asked--one of the particular objectives is 
rural coverage, and we have asked industry, ``You tell us what 
is the best way to solve that requirement.'' It could be 
deployables, it could be terrestrial. We don't know how they 
have come up with the answer yet, but when we get to that 
point, that could be part of the solution set, but we're asking 
industry to do what they do best, come up with the most 
creative solution to solve and that, as previously discussed 
and pointed out, and hopefully industry has been listening for 
the last 3 years, rural and rural coverage is a significant 
component to the success of this network. So we're hoping and 
very optimistic that there will be some solutions that can 
address some of those concerns.
    Senator Fischer. And we've also heard some concerns from 
stakeholders about the deployment of the broadband network that 
could possibly result in overbuilding, especially of existing 
commercial networks, and in Nebraska, you and I discussed this 
previously, that our telecommunications carriers are doing a 
really good job of bringing service to our rural areas and our 
underserved areas. Do you have any specific steps that FirstNet 
is taking to ensure that this overbuilding or what I would 
consider maybe an inappropriate use of limited funds, might be 
addressed?
    Mr. Poth. We're not expecting nor anticipating an 
overbuilding, even in the rural areas. If you envision what is 
happening in technology today, you've heard the term ``Internet 
of Things,'' and the number of devices that are going to be 
required to have access to a spectrum, not to mention, 
obviously, our most important customer, public safety. So we 
believe as devices and the Internet of things, Internet of 
public safety things, grows, that the spectrum needs that are 
currently in use will be saturated. And then also with our--the 
additional Band 14 that will come into place will just 
complement that.
    Senator Fischer. OK. Mr. McLeod, have you heard anything 
from Governors that are concerned about maybe overbuilding 
existing commercial networks?
    Mr. McLeod. Thank you for the question, Senator. I think 
the big concern for Governors is making sure that to the extent 
possible, using existing resources and infrastructure to build 
out the network, just to be mindful stewards of taxpayer 
dollars. I have not heard specifically that that is a big 
concern for them.
    Senator Fischer. OK. And, Mr. Katsaros, in your written 
testimony, you list FirstNet's operating expenses for Fiscal 
Years 2012 through 2015, and you note that while FirstNet spent 
less than $250,000 in 2012, it spent $17 million in 2013, $24 
million in 2014, and $49 million in Fiscal Year 2015. Can you 
please clarify if all of these numbers reflect spending that 
would be considered administrative expenses under the Act? And 
if so, does this upward trend in funding not suggest that 
FirstNet is going to exceed its allowable authorization for 
those administrative costs? And what's going to happen in case 
it does?
    Mr. Katsaros. Thank you for the question. That's an 
excellent question. Those costs, per our understanding, those 
are the total costs, so they are not their administrative 
costs. Their administrative costs are much less than that. They 
have been trending over the 10-year period at less than $10 
million already, so--but there are no concerns on that area at 
the moment.
    Senator Fischer. So that should be within the $100 million 
that's been authorized then if that current trend continues for 
the administrative costs. Is that correct?
    Mr. Katsaros. Correct. They are under--they are well under 
that.
    Senator Fischer. And, Mr. Poth, do you anticipate that that 
will happen, that you will be under that $100 million?
    Mr. Poth. We will absolutely be under that $100 million.
    Senator Fischer. OK. Thank you very much.
    Thank you, Mr. Chair.
    Senator Wicker. Thank you, Senator Fischer.
    Mr. Katsaros, the 2012 Act established FirstNet as an 
independent authority within NTIA. Is that, in fact, working 
out? How is that arrangement working? And what, if any, role 
does NTIA have?
    Mr. Katsaros. Yes, thank you. That's another good question. 
We are not aware of another independent authority that is 
housed within a Federal department other than FirstNet, so when 
it was created as----
    Senator Wicker. It doesn't compute to an IG----
    Mr. Katsaros. Correct. It did not initially. So when we 
were confronted with an oversight challenge, we were informed 
that this is an independent authority under NTIA, the National 
Telecommunications and Information Administration.
    So it maintains some of the sort of capacity, 
administrative capacity, of the NTIA. It allows it to partner 
with NTIA, allows for us to partner with NTIA, and initially it 
caused us to sign a Memorandum of Understanding to fund our 
oversight activity for FirstNet, which we have now canceled, 
and now we are considering FirstNet under our general 
appropriation for funding oversight. But the relationship with 
NTIA exists, and it is part of the law, so we work with both 
offices.
    Senator Wicker. Were you referring to the MOU with Commerce 
OIG?
    Mr. Katsaros. Correct.
    Senator Wicker. OK. Well, OK, now, as I understand it, 
FirstNet and Commerce OIG agreed to terminate the memorandum of 
understanding because FirstNet felt that all of the issues had 
been adequately addressed. Are you satisfied that that in fact 
is the case?
    Mr. Katsaros. Well, I don't believe that all of the issues 
would have been adequately addressed. I believe what the 
cancellation of the MOU was contemplating was that all of the 
requests for services that were originally considered under the 
MOU had been addressed. So to the extent that the request, 
FirstNet's request, for OIG services were included in that MOU, 
those services have been--we believe those services have been 
completed. There are many, many more things obviously to do 
from an oversight perspective of FirstNet that are still to be 
accomplished.
    Senator Wicker. Mr. Poth, would you respond particularly 
with regard to this independent authority aspect of my question 
just now?
    Mr. Poth. Yes. So while we enjoy certain rights with the 
independent authority, we do find ourselves from time to time 
bogged down with some clunky, well-intended Federal processes 
that do not enable us to remain as quick and nimble and agile 
as we need to be, you know, for the true public-private 
partnership. We've had a lot of success sometimes by brute 
force to work around within the rules.
    A lot of times people confuse our need for independence as 
clouded as that we are trying to not be accountable or 
responsible, and that's not the case. We have to move very 
fast. As the Senator earlier mentioned, technology and 
technology companies are moving very fast, and to be a true 
private-public partnership, we're going to still need to have 
more streamlining and more of the constraints that sometimes 
placed upon an agency within another agency have. So we 
continue to work with Commerce and with NTIA to streamline 
those areas, but it is still sometimes constraining.
    Senator Wicker. Would it be fair to say that there's a 
difference of opinion between your shop and NTIA as to what 
that term actually means, ``independent authority''?
    Mr. Poth. I don't think there's necessarily a difference of 
opinion, it's a difference in how it needs to be applied, 
because NTIA has been a great partner, but they also feel that 
they are responsible since it is within their organization. So 
that conflicting wording sometimes creates a little havoc. 
We've been very successful working in partnership with them, 
but it does add sometimes additional layers of oversight and 
checks that sometimes we don't believe necessarily is going to 
help us get to the value add. We certainly welcome and always 
will respond to being responsible and accountable for all our 
actions, but we do look forward to continuing to work with them 
to streamline it.
    Senator Wicker. I don't want to start a fight----
    [Laughter.]
    Senator Wicker.--but I think you said there was a 
clunkiness.
    Mr. Poth. Yes.
    Senator Wicker. I think it would be helpful if you 
enlightened the Committee about that. What would be an example?
    Mr. Poth. Well, there are certain processes. For example, 
when we submit our annual report to Congress, which is a 
requirement, and there are up to 10 agencies that this gets 
circulated and signed off before we can hit the Send button to 
your offices. We welcome additional recommendations in 
oversight on certain things and participation, but that 
introduction of a delay of X amount of time, while it's not 
fatal, it does push against reports and obligations. If you 
envision next, as we work in partnership with our private 
sector partner as we deploy this nationwide network, as certain 
twists and turns come up with any major effort like this, if we 
have that same sort of process to make sure that everyone is 
comfortable with the decision, that clunkiness may result in 
some certain delays where decisions need to be made, you know, 
in a more real-time fashion.
    Senator Wicker. OK. You know what? I'm going to give you a 
chance to expand on that answer for the record, and you'll be 
able to choose your words. But, again, I'm not trying to create 
strife here.
    Mr. McLeod and General Logan, I think I've characterized 
Mr. Katsaros's testimony as correctly as saying that there are 
shortcomings and that FirstNet needs to step up its game. Would 
either of you care to respond to the testimony from the IG as 
to some of the challenges that he has outlined?
    General Logan. Sir, I'm not sure I really understand the 
question.
    Senator Wicker. OK. Well, let me ask you this, Mr. 
Katsaros, have I mischaracterized your testimony? It seems that 
your testimony is that you have some serious doubts about this 
all coming together as planned and required and as written on 
paper. Is that correct?
    Mr. Katsaros. I think that's fairly well summarized. I 
think there are still a lot unknown especially in this pre-
award phase. And then with respect to your comments earlier on 
internal control, in a lot of ways, FirstNet is still a startup 
organization, and they experienced sort of the typical 
operational challenges that a startup organization would 
encounter. And I do appreciate working with FirstNet that they 
have adjusted and made those changes that were necessary to 
kind of move them forward so that it's not a distraction, and I 
think that's the important thing, that these operational 
challenges and acquisition challenges and procurement issues 
are not a challenge as they try to do this important work.
    Senator Wicker. Are you optimistic that the goals could be 
met this year?
    Mr. Katsaros. That's a great question, and it's going to be 
very difficult to answer. Like we keep talking about this pre-
award phase in our office, and during this phase, we're looking 
at a November 1st timeline. We state that that is aggressive. 
This is going to be--consultations in several phases are going 
to be ongoing over the next several months, and there are a lot 
of variables that need to fall in place for this to be 
successful. So it's a great question.
    Senator Wicker. Let us know if the Committee can be 
helpful.
    Now, do either of you care to respond to that? If not, 
we'll----
    Mr. McLeod. Sure.
    Senator Wicker. Yes, Mr. McLeod.
    Mr. McLeod. To your original question, I can say that 
Governors are fully committed to this being successful, and 
they pushed hard to get the legislation passed in 2012, and 
they want to see this work and be successful.
    I think certainly going forward a big question is just the 
unknowns. There is--this is--as I said, this is unprecedented 
in terms of its size, complexity, and scope. So to the extent 
there are unanswered questions about, for example, Can it be 
built within existing cost models? What will the user fees be 
to connect to the network? And are there any long-term 
administrative and operation costs that States are looking at 
that maybe aren't anticipated right now?
    So I think with just keeping in mind that States want to 
see it successful, just concerns about just the unknown, and 
until they get that State plan at the end of this year, States 
are going to probably hold back and wait to see if they want to 
opt in or opt out.
    Senator Wicker. Thank you very much.
    I had a hint that Senators Blumenthal and Klobuchar might 
be on their way.
    Senator Blumenthal.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thank you, Mr. Chairman, and thank you 
for enabling us to participate.
    Senator Wicker. We learned quite a bit actually.
    Senator Blumenthal. So I gathered. Thank you.
    [Laughter.]
    Senator Blumenthal. And the reason is it's--we have a very 
distinguished panel, and thank you for having this hearing and 
thank you all for being here today.
    I don't need to tell anybody here that during emergencies, 
local resources are strained and communities depend on the 
support of outside organizations in addition to first 
responders, the United Way, the Red Cross, all kinds of 
organizations that play a vital role in protecting property and 
restoring and maintaining the health and safety of individuals. 
One example, when Connecticut's shoreline was ravaged recently 
by Superstorm Sandy, disaster relief organizations mobilized 
quickly, they helped displaced families, they provided them 
with food and shelter, and the nonprofit United Way of 
Connecticut supports the state's 2-1-1, a 24/7 Health and Human 
Services information referral helpline, which plays a critical 
role in the kinds of emergencies that we encountered in 
Superstorm Sandy, and other disasters or emergencies. Whether 
it's snowstorms or hurricanes, floods, clearly there's a need 
for such organizations to have access to a dependable national 
public safety broadband network in order to operate as 
effectively as possible.
    But I understand that the states currently lack clarity as 
to what entities will be able to use FirstNet. I'm concerned 
about that fact. In fact, according to the statute, all, 
``public safety entities,'' shall have access, but it's not 
clear what that term means, ``all public safety entities.''
    So let me ask you, Mr. Poth, in addition to our first 
responders, which is law enforcement, fire, EMS, police, what 
other entities are encompassed in the definition of ``public 
safety entity''? Would it include in Connecticut our United 
Way, our Red Cross, our community organizations, and the like?
    Mr. Poth. Thank you very much for the question. That's a 
great one. What we've done, and you're correct, the definition 
is in our statute, and we've leaned upon our Public Safety 
Advisory Committee led by Chief Chairman Harlin McEwen to help 
us sort through some of these questions, and as that relates to 
what's called local control, we've asked them--they represent 
40 public safety agencies and associations, international 
chiefs of police, IFF, international city/county management 
associations, volunteer firefighters, ``What would be, based on 
public safety's needs, the hierarchy of control?''
    So everyone will have access to the network. Where it 
becomes important is, What is that priority? You mentioned some 
of the three traditional, police, fire, EMS, and it can also 
extend to hospitals all the way down to schools and to those 
volunteers.
    So they're helping us work through that as to what is 
important for local control, and then when we work with our 
partner, those things will be kind of set up. I think they have 
up to 19 tiers of priority that they've identified through 
local control, because you're exactly right, Senator, in a time 
of crisis, it's not just the first responders that are needed, 
it is a true community-wide effort that relies on both public 
and private partnerships volunteers to be an integral part of 
that response fiber.
    Senator Blumenthal. And the structure or fabric of an 
emergency response also includes hospitals, health care 
providers, transit authorities, and so forth. They are public 
safety entities in a sense as well.
    Mr. Poth. Oh, absolutely. There are states that have 
already standing agreements with bus companies if they have to 
move mass quantities of people out of their area due to 
flooding and those types of things. That becomes part of the 
response fabric that you mentioned.
    Senator Blumenthal. Let me ask you in the short time I have 
remaining, at the last hearing on FirstNet, I asked, What can 
be done to make sure that FirstNet is not hampered by a 
sluggish hiring process, I don't know whether you recall that 
question, and that it has the authority needed to hire the best 
and the brightest most efficiently? And I would like to revisit 
that question. Have your hiring processes changed or improved?
    Mr. Poth. Yes, they have improved, and we like to think 
that we do have the best and brightest that we've brought to 
bear. Our technical and our operational and management teams 
are, I would say, second to none. We do have some of the 
traditional challenges in the Federal system, but we have 
developed, working closely with the other agencies and human 
resources, to streamline that as effective as possible. But we 
are, you know, competing with a commercial market for some of 
that talent. We've been very lucky. Because of the mission and 
the passion our employees have for this mission, that it has 
become an easier sell.
    Senator Blumenthal. Thank you very much. And, again, my 
thanks to this panel for your contributions to this area of 
public policy and for your being here today. Thank you very 
much.
    Mr. Poth. Thank you.
    Senator Wicker. Thank you, Senator Blumenthal.
    Senator Klobuchar.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Well, thank you very much, Mr. Chairman. 
And thank you to all of you. I'm sorry I wasn't here earlier. 
We have the Canadians in town, and Senator Crapo and I head up 
the Inter-Parliamentarian Group. And actually I have a Canada 
question to cap that off.
    But this means a lot to me, this issue. I'm a former 
prosecutor. Senator Burr and I head up the 9-1-1 Caucus and 
Next Generation 9-1-1. You know, we've worked hard to update 
some of our systems and make them more interoperable. This was 
really called home in my State when we had the I-35W bridge 
collapse. Despite the fact that there were dozens and dozens of 
cars in the water when an eight-lane bridge collapsed in the 
middle of one of the biggest rivers in the country, 13 people 
died. It could have been so much worse if not for our emergency 
responders. And I think what doesn't always get a lot of 
attention was the reason they were able to get people to safety 
and get them to hospitals so immediately was that the 
Minneapolis Emergency Community Center--Communications Center 
received and processed over 500 calls, 51 of which came 
directly from the scene of the disaster. Seventy-seven men and 
women were handling those calls, and, of course, no warning 
whatsoever, not even the warning you would have with a storm, 
and were able to get those people help. It's an incredible 
story of work that had been done for years leading into it 
anticipating some kind of a disaster between our area 
hospitals.
    So my first question would be about interoperability. We 
had a major shooting of a police officer, and it really changed 
the way we looked at it because when the police from many 
jurisdictions were chasing the deranged man who had killed the 
police officer, they were using 13 different systems, and many 
of them couldn't communicate with each other. And so that 
really spurred us on to make some changes. And I know that 
we've been working on this since 2004.
    Mr. Poth, what guarantees can you give the Committee that 
the feedback gathered from stakeholders in State consultations 
as States are developing these State plans will be 
incorporated? And how will FirstNet respond as States continue 
to gather and provide updated data?
    Mr. Poth. Great. Thank you so much for the question. And 
just those two small examples demonstrated the need and why 
public safety demanded that this network and that FirstNet 
deploy this network. What we've done is in the State 
consultations and the outreach to both the States, to cities 
and counties and public safety entities, is make sure that they 
understand the value proposition and the interoperability that 
is the cornerstone of what we are trying to accomplish with 
this network. The interoperability even with Canada will be 
critical because of the border States and those needs and 
initiatives.
    We're expecting that as we continue even post-acquisition 
and award, to continue the consultation and champion the cause 
for the States and for public safety with our partner and in 
the technology world to keep pushing advancements. You 
mentioned the dependency and interconnectivity with the 
dispatch centers. The public safety answering points are key 
components into that first response on a lot of different 
incidents, and we work closely with APCO and NENA to make sure 
that their efforts and what's going on with NG9-1-1 is closely 
tied into what we're trying to accomplish with the broadband 
network.
    Senator Klobuchar. Well, and since you brought up Canada, 
thank you, so I can report back to our 15 members of the 
Canadian Parliament who are in town.
    [Laughter.]
    Senator Klobuchar. Obviously, we're concerned about the 
level of interoperability since we are right on the Canadian 
border in Minnesota, as are so many of our States, and you've 
got the Great Lakes right there, and there's a vast expanse 
between our two countries. And could you give us an update on 
the coordination between the two countries and these border 
areas?
    Mr. Poth. Yes. We spend a lot of time with our Canadian 
counterparts updating them on our progress and what they're 
doing. We also have the luxury with Canada in that the Band 14 
spectrum is the same bandwidth that they also have allocated 
for their public safety. So although I get outside my comfort 
level on the technical side, I believe that makes it even more 
seamless. But we have ongoing exchanges and updates with the 
Canadian team as they are trying to implement this on their 
side to ensure timely response for both parties.
    Senator Klobuchar. Thank you.
    Mr. McLeod, Sheriff Stanek of Hennepin County, our biggest 
county in our state, serves on the FirstNet board representing 
law enforcement. And are there some specific needs that 
firefighters hope to see incorporated into the design of 
FirstNet? And what do you think can be done to incorporate some 
of the law enforcement and firefighter concerns?
    Mr. McLeod. Thank you for the question, Senator. I think 
states certainly look to the network as being available to a 
wide range of first responders, so that would include fire, 
police. I think that goes back to making sure that there is 
real value there and that they demonstrate the value to States 
and to those first responders.
    Senator Klobuchar. Thank you.
    I just had one last question, and maybe I'll put one more 
on the record.
    But I'll get back to you, Mr. Poth. Newcore Wireless, which 
is based in Saint Cloud, Minnesota, recently participated in a 
pilot project with FirstNet in Elk River. The pilot project 
tested a public safety LTE network in urban and rural areas, 
and I'm glad that you're looking at those partnerships with 
rural companies, that's where a lot of our gaps are. I've seen 
this, and we've got--you know, it's everything from a major 
case of a fugitive to someone with a snowmobile that broke down 
in the middle of--and it's a small thing, but it's not a small 
thing because they are completed isolated and they can't get 
through even though they have a cell phone.
    And it's my hope that FirstNet will not only share the 
public safety community--serve the public safety community but 
can also share and spur on these kinds of additional wireless 
broadband and infrastructure deployment like we've seen in this 
pilot. Could you talk about this pilot in particular and what 
you learned from it?
    Mr. Poth. The particulars I'm not exactly up to speed on, 
but I do know that we use that, as we've done with all the 
early builders, as lessons learned, and we incorporate every 
one of those events, and we take copious notes to make sure as 
we work with our new partner, still yet unidentified, to learn 
from those lessons as we begin the deployment into the Nation. 
We also are expecting, as you've already noted, through the RFP 
process, the rural partnerships to be clearly articulated, and 
the value proposition to go out to the rural areas will be 
clearly stated in all the State plans.
    Senator Klobuchar. All right. Very good. Well, thank you. 
Thank all of you for your good work.
    Mr. Poth. Thank you.
    Senator Klobuchar. Sorry I didn't get to everyone, but the 
Canadians await me. Thank you.
    Senator Wicker. Thank you, Senator Klobuchar.
    And thank you, gentlemen. I think this has been a very 
knowledgeable panel and a very enlightening hearing. Thank you 
very much. And the hearing is closed.
    [Whereupon, at 10:51 a.m., the hearing was adjourned.]

                            A P P E N D I X

   Prepared Statement of Hon. Bill Nelson, U.S. Senator from Florida
    FirstNet is at a critical juncture. The nationwide network is 
closer to reality than ever before, and yet much remains to be decided. 
Just a few weeks ago, FirstNet received responsive bids to its requests 
for proposal (RFP) for deployment of the network. The carefully crafted 
RFP, which was the result of extensive preparation and consultation, 
set forth detailed objectives for the first responder network that any 
private sector partner has to meet. I know we are all anxious for 
FirstNet to complete its review of those bids--something it plans to 
accomplish before the end of this year.
    We are not allowed to know the number of bids FirstNet received, 
nor the specifics of those bids. Indeed, Mr. Poth cannot give us any 
insight into those bids while we are in this sensitive review period. 
We all want to know how the private sector responded to the RFP. What 
do the bids say about how rural areas will be covered? How will 
FirstNet become self-sustaining? What insights can the bidders provide 
about how the network will be deployed in states and territories? These 
are all questions for another day. In fact, one wonders about the 
timing of today's hearing given the legal and practical constraints on 
all parties, including FirstNet, who can offer the most insight about 
network planning and other questions.
    Broadly speaking, the legislation creating FirstNet built in a 
great deal of flexibility in how the network was to be deployed, 
leaving actual implementation to the private sector partner. The RFP 
rightly set forth broad objectives to meet the statutory directives, 
but leaves the details to the private part of what will be the first-
of-its-kind, public-private partnership. Selecting a private sector 
partner likely will not be easy. Will FirstNet's eventual decision make 
everyone happy? Of course not--that's a given. But is it critical that 
we get this done? You bet.
    When we came together in a bipartisan way more than four years ago 
to take the important step of creating FirstNet, it was because we knew 
we needed to give our Nation's first responders--who put their lives on 
the line each and every day--the tools they need to communicate 
effectively during emergencies. Governors, mayors, and public safety 
officials from across the country all joined us to put aside individual 
parochial concerns and recognize that we all had to work as partners to 
create a new paradigm if we were to make a truly interoperable network 
for first responders a reality.
    As it's taken several years to get to the RFP stage, that 
collective will in support of FirstNet may have faded into skepticism 
in some corners. I fear that some may try to exploit such feelings at 
the expense of our Nation's first responders. Now is not the time to 
jump to conclusions or make rash decisions with regard to FirstNet. The 
process Congress created is working and we will soon know the 
parameters of the private sector's response to the RFP.
    As I have said before, we knew the mission we gave FirstNet would 
not be easy--but the stakes of inaction were too high. That's why we 
cannot lose sight of what brought Congress to create FirstNet three 
years ago--our nation's first responders deserve an advanced nationwide 
interoperable wireless broadband network to help them do their jobs to 
protect us all.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Kelly Ayotte to 
                              Michael Poth
    Question 1. Since our last oversight hearing, we have seen 
increasingly advanced cyberattacks target major companies, government 
agencies, and critical infrastructure owners and operators around the 
world. Given these constantly evolving threats, does FirstNet have a 
plan to ensure its cybersecurity strategy is able to keep pace with new 
security innovations and technologies in order to remain relevant well 
into the future?
    Answer. Cybersecurity is one of the sixteen key objectives that 
every offeror of the RFP must demonstrate to meet the requirements of 
deploying the NPSBN. Included in a cybersecurity solution, an offeror 
must provide an end-to-end solution for cybersecurity covering 
everything from devices, to connectivity, physical security to network 
operations, to applications and other software. The difference with the 
NPSBN and other networks is that cybersecurity will be considered from 
the very beginning of the network design, instead of in an ad-hoc or 
patchwork way. This enables FirstNet and our future partner(s) to 
consider how to approach threats like malicious attacks in ways before 
the network is designed.
    While there will be no perfect solution to cybersecurity, the 
benefit of doing this with a private-sector partner is that we can 
aggregate the lessons, processes, and responses from multiple agencies, 
companies, and other sources, to become smarter, more proactive, and 
better informed to protect the FirstNet network. FirstNet intends to 
leverage expertise from the public and private sector for the benefit 
of public safety.
    The contract term is 25 years, and the RFP requires that the 
partner show that it has a way to continuously upgrade, maintain, and 
secure the network throughout the life of the program. FirstNet is 
still evaluating RFP responses at this time and therefore cannot 
discuss any specific proposed solutions to the NPSBN. Through the RFP, 
however, FirstNet has communicated that it fully expects its future 
partner to have solutions to all cyber threats, including malicious 
attacks.

    Question 2. Additionally, a key challenge to designing 
cybersecurity into complex systems is doing so without negatively 
affecting speed and function. Building a national public safety 
broadband network presents similar challenges. How is FirstNet 
designing a secure system that also preserves rapid response time and 
robust functionality?
    Answer. FirstNet staff includes those who have served in public 
safety, from the wireless industry, and, in some cases, both. This has 
given us the perspective to appreciate the technical challenges and 
opportunities with deploying the NPSBN, while also focus on meeting the 
needs of public safety. Through consultation, many States provided us 
with case studies of how their first responders used data and wireless 
technologies in everyday activities and during incident responses. This 
was also extremely beneficial in helping us understand the particulars 
of each State and geographical challenges that FirstNet will have to 
meet.
    During the New Hampshire initial consultation, the State shared the 
challenges it faces when responding along its border and throughout its 
rural and diverse geography. These comments will inform FirstNet's work 
with its private sector partner(s) to help determine the best possible 
solution.
    We also understand there is a balance between accessibility, speed, 
and reliability while still achieving security. We have looked at 
commercial deployments of networks as examples and will be working with 
our partner(s) to develop a secure network that is usable during 
incident response. Over time, as we learn from our users about how they 
have accessed the network, we will continue to work with our partner(s) 
to improve how the network serves its users.

    Question 3. I appreciate FirstNet's diligence to make sure rural 
areas of the country have access to FirstNet, including the 15 percent 
geographic requirement for prime contractors to partner with existing 
rural telecom providers. I have noticed, though, that the 15 percent 
rural partnership requirement will only be evaluated at a single 
preliminary stage in the RFP selection process. How will FirstNet 
ensure that the final accepted contract still includes the rural 
partnership stipulation? And, once implemented, that the winning bidder 
follows through on its assurance to partner with rural 
telecommunications providers for at least 15 percent of the total 
coverage nationwide?
    Answer. Including rural coverage and rural providers are key 
evaluating factors in the RFP. In the RFP, we ask an offeror to meet 15 
percent of its nationwide rural coverage objective with rural 
providers. When responding to the RFP, an offeror was to provide, on a 
state-by-state basis, its proposed partnerships with rural providers, 
and show that on a nationwide-level they met or exceeded the 15 percent 
minimum target. Fulfilment of this requirement will be monitored 
throughout deployment and over the lifetime of the contract with 
FirstNet. The 15 percent rural partnership requirement was a minimum 
threshold in an early stage of the evaluation process. However, that 
was not the only time that the offerors' rural partnerships will be 
evaluated. An additional evaluation factor for the RFP is the offerors' 
rural partnerships over and above the 15 percent minimum threshold as a 
means of fulfilling the utilization of existing infrastructure, as 
mandated by Congress, which is one of the sixteen objectives outlined 
in the RFP.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Ron Johnson to 
                              Michael Poth
    Question 1. Mr. Poth, I have heard that FirstNet is ``ahead of 
schedule and under budget'' as it moves to implement the Public Safety 
Network. Is this true?
    Answer. Financial responsibility is one of the key tenants of 
FirstNet's obligations to deploying a nationwide network. In the Act, 
FirstNet was given a one-time allocation of up to $7 billion as seed 
capital and explicit direction that the network and our organization 
are to be self-sustaining. To be solvent, FirstNet was licensed 20 MHz 
of spectrum, has the ability to monetize excess spectrum capacity via 
covered leasing agreements, and can assess certain fees (e.g., for 
network use or access).
    FirstNet has a responsibility to the American people, and public 
safety in particular, to use these assets wisely. Every day FirstNet 
does not provide service and maximize the spectrum availability is a 
day lost to serving public safety and the communities they serve. And 
for this cause the FirstNet organization is driven to fulfill its 
mission, which fuels the urgency to deploy this network.
    To date, FirstNet has stuck to our announced deadlines, outlined in 
our publicly available roadmap, and remains within budget. Any delays 
of the network would be a delay to serving public safety.

    Question 2. Mr. Poth, can you commit that FirstNet has no plans to 
seek additional funds, outside of what has already been authorized, 
from Congress? Will FirstNet commit to a model that is self-sustaining 
moving forward?
    Answer. FirstNet commits to staying within our budgetary authority 
and has developed a business plan that we believe will maintain 
financial sustainability. Being self-sustaining is a factor in driving 
the speed at which we are executing. We are extremely mindful of our 
fiscal and legal obligations and do not intend to veer from those 
responsibilities.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Cory Gardner to 
                              Michael Poth
    Question 1. You indicated in your response to one of my questions 
at the hearing that FirstNet will send states a draft plan so that they 
``have plenty of time to understand the coverage, the cost and what is 
being proposed.'' And you say further that while there is opportunity 
for feedback, there will be some limitations since the plan will 
already be under a contract term, but regardless, FirstNet will work 
with the states. In light of those comments, do you agree that states 
should have the ability to alter components of the plan if it will not 
work for their state?
    Answer. FirstNet's mission is to ensure the deployment and 
operation of a nationwide, interoperable communications system for 
public safety. This has been demanded by first responders, who desire 
priority, pre-emption and expanded coverage from what they currently 
have on existing commercial networks. As FirstNet has limited resources 
to accomplish this mission, we aim to achieve the best solution for 
public safety in every state and territory within our financial means. 
This public-safety focused mission is at the core of FirstNet's 
consultations with the States and is reflected in the request for 
proposals (RFP) we issued this year, which seeks a nationwide partner 
to deploy and operate this system.
    FirstNet's goal is to provide the best possible network to meet 
public safety's needs throughout the Nation. We have been working with 
our State partners for the better part of two years to understand their 
unique needs so that the State Plans reflect the desires of each State. 
FirstNet intends to work with the RFP awardee to tailor the draft State 
Plans to these State requirements as best we can. Our goal is to 
produce State Plans that are a product of States' data collection 
efforts, ongoing consultation activities, and coverage objectives 
balanced with Congress' mandate for a self-sustaining network. Thus, it 
is our hope that we can address issues identified by States, without 
compromising the financial sustainability of the network, through a 
draft State Plan process in consultation with our State partners.

    Question 2. Does FirstNet intend to preempt any state and/or local 
zoning or other laws in order to implement the network?
    Answer. The Act does not contain any express exemption for FirstNet 
from State and/or local zoning laws. Therefore, FirstNet's commercial 
partner(s) will be expected to comply with applicable Federal, State, 
and local zoning laws and their associated regulations. FirstNet will 
work with States or localities that want to share information on zoning 
requirements or associated regulations that may impact deployment, 
operation, and maintenance of the network.

    Question 3. Will FirstNet outline the secondary costs to states in 
the state plan, including for example, the costs to connect a public 
safety answering point (PSAP) to the network?
    Answer. The State Plan will include information on the deployment 
of the radio access network (RAN) within a State's geographical 
boundaries. If a Governor chooses to opt-in to the FirstNet State Plan 
or chooses to take no action at all during the 90-day Governor's 
decision period, all RAN deployment costs will be borne by FirstNet and 
not the State.
    The State Plan will also outline and describe specific fees and 
costs that a State would bear, if it were to opt-out of FirstNet's 
State Plan and decide to deploy, operate, and maintain the RAN with 
State funds. Due to the State having to then develop its own RFP and 
execute its own procurement to bring on a private sector partner, 
FirstNet cannot definitively know what the State's costs would be for 
interconnection and interoperability before a State selects its own 
partner.
    Additionally, the State Plan will include the optional costs for 
public safety entities to subscribe to FirstNet services if the network 
meets public safety's needs and is determined by the public safety 
entity to be its best choice for service.

    Question 4. I know that there have been public notices and that you 
have solicited feedback from states and interested parties throughout 
the drafting process. Is that feedback available to the public? If not, 
will it be made available? If so, when? If not, why not?
    Answer. FirstNet takes transparency of its operational decision-
making very seriously, which is why it has frequently chosen to ask for 
and has received public comments on its actions. The links below are 
publicly accessible and represent examples of FirstNet's solicited 
public feedback:

  <bullet> The Draft RFP documents are all public documents, along with 
        the answers and responses to over six hundred (600) received 
        questions. Those documents may be accessed here: https://
        www.fbo.gov/index?s=opportunity&mode=form&tab=
        core&id=3107e180a6f34e13df3f4fa7f86d55df&_cview=1

  <bullet> FirstNet's first public notice and associated comments can 
        be found here: https://www.federalregister.gov/articles/2014/
        09/24/2014-22536/first-respon
        der-network-authority-proposed-interpretations-of-parts-of-the-
        middle-class-tax-relief

  <bullet> FirstNet's second public notice and associated comments can 
        be found here: https://www.regulations.gov/document?D=NTIA-
        2015-0001-0001

  <bullet> FirstNet's third public notice and associated comments can 
        be found here: https://www.regulations.gov/document?D=NTIA-
        2015-0002-0001

  <bullet> FirstNet's final interpretations and responses to associated 
        comments can be found here: https://www.federalregister.gov/
        articles/2015/10/20/2015-26621
        /first-responder-network-authority-final-interpretations-of-
        parts-of-the-middle-class-tax-relief-and

    https://www.federalregister.gov/articles/2015/10/20/2015-26622/
        final-inter
        pretations-of-parts-of-the-middle-class-tax-relief-and-job-
        creation-act-of-2012

  <bullet> FirstNet solicited another round of questions for its final 
        RFP. The associated responses and changes to the RFP made 
        because of the public's immense response (400+ questions) can 
        be found here: http://www.firstnet.gov/news/firstnet-issues-
        rfp-nationwide-public-safety-broadband-network

    Question 5. Colorado is a state known for its outdoor recreation 
and isolated population centers. With these facts in mind, Colorado 
proposed that 97 percent of the state's area be covered under FirstNet. 
I cannot blame my state for aiming as high as they possibly could, 
thinking that FirstNet would propose something slightly lower that they 
could agree upon. However, FirstNet ultimately proposed coverage of 24 
percent of the state's land area. Did FirstNet take into account 
significant outdoor recreation areas, seasonal population, or isolated 
population centers when determining its proposed coverage area? Given 
that Colorado is relatively unique in these respects, do you believe 
that 24 percent of the state's area is a reasonable coverage goal?
    Answer. FirstNet has not proposed any coverage to Colorado or any 
state at this time. Partner proposed Coverage maps for each state will 
be available after FirstNet has awarded a contract from its nationwide 
Request for Proposals (RFP) and draft State Plans have been developed 
and presented to each State. Current timelines estimate this date to be 
in calendar year 2017.
    In its FirstNet ``data collection'' submission, the State of 
Colorado expressed its priorities for timing of the deployment and the 
need to cover 97 percent of the state geographically. This data, along 
with other states' data collection efforts, are in the RFP Reading Room 
for each of the offerors to review and respond to, focusing on the true 
needs and priority areas of each State. Because there are costs 
involved in any network deployment and FirstNet must be a self-
sustaining entity, these priority areas were meant to help the 
offerors' business planning needs so that the States' rural area 
deployment priorities could be addressed in as near to the order 
requested by the State as possible (for instance, some States 
prioritized deployment in their rural State/national parks and 
recreation areas before other rural locations due to the seasonal 
visitor spikes that occur in the parks/recreation areas).
    The stated ``24 percent'' coverage cited above was a starting point 
for State to develop their Coverage Objective for the state and the 
data collection that FirstNet presented to Colorado (and all other 
States) based on known highways, population centers, and other public 
safety needs. This Coverage Objectives baseline was then used by States 
to supplement where they saw additional areas of needed coverage and 
was not intended as a proposed coverage objective. This information was 
presented to the bidder community to allow them to properly price the 
network deployment in their proposals and to identify the cost 
associated with the states desires.

    Question 6. What are the options for a state that opts into the 
network but then, prior to the expiration of the partnership contract, 
realizes that it does not meet the state's needs?
    Answer. The Act only contemplates a single Governor's decision once 
presented with the final FirstNet State Plan. However, FirstNet intends 
to work with States and their local/State public safety entities 
throughout the 25-year contract, and further throughout the life of the 
network, to ensure that FirstNet is meeting the needs of public safety. 
FirstNet had developed a Chief Customer Office (CCO) position to ensure 
that satisfaction with the deployment by subscribers to the network. It 
is the FirstNet's goal to ensure that the provider is providing 
superior service to public safety within each state but staying within 
the fiscal limitations of sustainably. Even after the network is 
deployed, there is no mandate for public safety or the States to use 
the network.

    Question 7. What mechanisms will be in place, apart from the 
financial penalties identified in the RFP, to assure state and local 
leaders that the public safety network will meet their needs for the 
next 25 years? How will the operational and oversight models ensure 
local responders will have a say in the evolvement and review of the 
network performance (upgrades, expanded coverage & capacity, new 
features, etc.)?
    Answer. State and local public safety users have the ultimate 
market-driven tool to ensure their needs are being met: the ability to 
walk away and switch to another service available in the market. 
FirstNet intends to work directly with State and local public safety 
entities to meet their needs of expanded coverage and capacity, feature 
and device upgrades, etc. as they arise. FirstNet and its future 
partner must listen to and adapt to public safety's evolving 
situational awareness and operational needs over the next 25+ years to 
be successful.
    Additionally, FirstNet recently announced the creation of a Chief 
Customer Office (CCO) to prepare for a customer-centric operating 
environment with a focus of evolving the organization so it is in the 
best position to work with and serve the public safety marketplace. The 
CCO includes many of FirstNet's current ``User Advocacy'' programs, 
such as Outreach, Consultation, State Plans, and Communications. The 
office will also encompass future customer service programs, product 
management, marketing, training, and will continue to evolve to meet 
FirstNet's public safety customers' needs.

    Question 8. Given the difficulty in constructing new sites on 
Federal land and the lack of existing carrier coverage in much of this 
area, how will FirstNet achieve significant rural coverage in states 
with large percentages of Federal land?
    Answer. FirstNet appreciates the need for improved connectivity on 
Federal land across the country and recognizes the difficulty and 
coordination needed in the construction of new sites. FirstNet will 
work in close coordination with its Federal, State, Tribal County and 
local partners to explore deployment opportunities and public 
infrastructure in these areas. While many solutions will be looked at, 
in some areas FirstNet may utilize alternative solutions, such as high 
power equipment (as allowed by the act) deployables and vehicular 
network solutions to assist in remote areas. FirstNet will be working 
with States and its RFP awardee to understand the possibilities of 
deployable coverage in areas with coverage needs that may not be static 
or as easy to build permanent structures.

    Question 9. Are there contingency plans in case the partner is 
unable to fulfill the obligations required for buildout?
    Answer. FirstNet will be fully engaged with our partner to deploy 
the NPSBN to ensure a timely and effective deployment throughout the 
lifetime of the contract. While we will work intently to avoid any 
missteps in the program, there is always the possibility of project 
delays or the partner missing buildout targets. This is one of the 
primary reasons why FirstNet is consulting with States, setting the 
proper expectations on deployment timelines and coverage, we don't want 
to over extend our financial position or induce financial risk into the 
project.
    For such contingencies, the Request for Proposals (RFP) outlines a 
system where FirstNet would intervene and assess the degree to which 
there may be possible failures to meet deployment targets. Depending on 
the severity of the missed targets, the partner will be obligated to 
make disincentive payments back to FirstNet. The disincentive payments 
are on a sliding scale, and will continue until the program is back on 
track. If for whatever reason the partner cannot return back to meeting 
targets in a mutually agreed way, then there is an option for FirstNet 
to step in and recover the deployment planning.

    Question 10. What efforts has FirstNet taken to ensure that its 
network incorporates strong cybersecurity measures to protect against 
malicious cyberattacks? How does FirstNet intend to maintain an up-to-
date system capable of resisting constantly evolving cyber threats?
    Answer. Cybersecurity is one of the sixteen key objectives that 
every offeror of the RFP must demonstrate to meet the requirements of 
deploying the NPSBN. Included in a cybersecurity solution, an offeror 
must provide an end-to-end solution for cybersecurity covering 
everything from devices, to connectivity, physical security to network 
operations, to applications and other software. The difference with the 
NPSBN and other networks is that cybersecurity will be considered from 
the very beginning of the network design, instead of in an ad-hoc or 
patchwork way. This enables FirstNet and our future partner(s) to 
consider how to approach threats like malicious attacks in ways before 
the network is designed.
    While there will be no perfect solution to cybersecurity, the 
benefit of doing this with a private-sector partner is that we can 
aggregate the lessons, processes, and responses from multiple agencies, 
companies, and other sources, to become smarter, more proactive, and 
better informed to protect the FirstNet network. FirstNet intends to 
leverage expertise from the public and private sector for the benefit 
of public safety. A prime example of how we intend to accomplish this 
is our forth public notice on cybersecurity which was released in 
October, 2015. The public notice sought solicit input from industry, 
public safety, and other interested parties as part of our RFP process 
by asking industry to provide some of the key considerations and 
concerns with respect to how cyber security should be designed, 
established, and sustained as the foundation of the NPSBN.
    The contract term is 25 years, and the RFP requires that the 
partner show that it has a way to continuously upgrade, maintain, and 
secure the network throughout the life of the program. FirstNet is 
still evaluating RFP responses at this time and therefore cannot 
discuss any specific proposed solutions to the NPSBN. Through the RFP, 
however, FirstNet has communicated that it fully expects its future 
partner(s) to have solutions to all cyber threats, including malicious 
attacks.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Bill Nelson to 
                              Michael Poth
    Question. FirstNet has engaged with numerous public sector 
stakeholders related to public safety, such as local governments and 
law enforcement entities. There are also private sector stakeholders in 
the public safety ecosystem, such as alarm service providers, who are 
willing to engage with FirstNet on potential use of the network to 
assist communication with public safety officials and first responders. 
What is the definition of public safety that FirstNet is using? In 
addition, how has FirstNet defined the difference between primary and 
secondary users of the FirstNet network?
    Answer. The Middle Class Tax Relief and Job Creation Act of 2012 
(Act) defines a ``public safety entity'' as ``an entity that provides 
public safety services.'' 47 U.S.C. Sec. 1401(26). In turn, the Act 
defines ``public safety services'' as having ``(A) the meaning given 
the term in section 337(f) of the Communications Act of 1934 (47 U.S.C. 
337(f)); and (B) includes services provided by emergency response 
providers, as that term is defined in section 2 of the Homeland 
Security Act of 2002 (6 U.S.C. 101).'' 47 U.S.C. Sec. 1401(27). Thus, 
under the Act, the definition includes, at minimum, the traditional 
public safety disciplines (law enforcement, fire, and EMS), as well as 
any other entities that provide ``public safety services.''
    FirstNet issued public notices providing preliminary guidance and 
seeking public comment on the ``public safety entity'' definition, 
among 63 other key interpretations of the Act that impact operational 
and economic issues regarding the planning, deployment, operation, and 
sustainability of Nationwide Public Safety Broadband Network (NPSBN).
    [See First Responder Network Authority Proposed Interpretations of 
Parts of the Middle Class Tax Relief and Job Creation Act of 2012, 79 
Fed. Reg. 57058 (September 24, 2014); Further Proposed Interpretations 
of Parts of the Middle Class Tax Relief and Job Creation Act of 2012, 
80 Fed. Reg. 25663 (May 5, 2015).] The responses helped inform 
FirstNet's network planning, including development of our request for 
proposals (RFP) for the deployment of the NPSBN.
    At this time, FirstNet does not plan to announce any final 
interpretation regarding the definition of ``public safety entity'' and 
will rely on the plain-language definition provided by Congress in the 
Act. However, FirstNet continues to analyze the scope of the 
definition, the needs of the public safety community, and the likely 
changing nature of those needs over time in determining whether it is 
necessary to provide additional guidance.
    Pursuant to the Act and FirstNet's Final Interpretations, a 
``secondary user'' is any user that seeks access to or use of the NPSBN 
for non-public safety services. See 47 U.S.C. Sec. 1428(a); Final 
Interpretations of Parts of the Middle Class Tax Relief and Job 
Creation Act of 2012, 80 Fed. Reg. 63523 (Oct. 20, 2015). Accordingly, 
while the Act does not use that terminology, public safety entities (as 
defined by the Act), as a whole, are the ``primary'' users of the 
NPSBN.
    FirstNet is focusing on developing priority and preemption 
capabilities so public safety voice, video, and data communications 
will not be in a figurative ``traffic jam'' caused by network 
congestion, which is what happens today in areas or events with a high 
concentration of users. As part of our work in this area, FirstNet is 
coordinating with the Public Safety Advisory Committee (PSAC) and the 
states and territories to help develop a Quality of Service, Priority 
and Preemption (QPP) framework for the NPSBN. The QPP framework seeks 
to ensure that the NPSBN remains a ``wide open freeway'' for public 
safety, so when public safety traffic increases, the NPSBN should, as 
quickly and seamlessly as possible, move non-public safety traffic onto 
other network roadways.
    Quality of Service (QoS) is needed to protect access to public 
safety mission critical services and applications at the required level 
of quality corresponding to their individual needs. QoS requires 
assignment of properties such as bandwidth guarantees, usage limits, 
latency, accuracy, accessibility, and retention.
    Priority is the means by which users, applications, traffic 
streams, or individual packets take precedence over others in 
establishing a service session or forwarding packets during periods of 
congestion in the network. Public safety users will require priority 
access to the NPSBN resources to make their communications (at the 
required level of QoS) an effective tool in their management of 
incidents and emergencies.
    Lastly, preemption is used together with priority to control use of 
resources by removing lower priority user active sessions and allowing 
allocation of resources to higher priority users when network resources 
are scarce or fully occupied.
    For further information on QPP, FirstNet authored a white paper on 
the subject, which is available in the RFP Reading Room. See http://
www.firstnet.gov/resources/request-reading-room-access. This paper has 
served as a reference document, explaining FirstNet's vision regarding 
QPP, so that potential bidders to FirstNet's RFP were able to develop 
proposals around these principles.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Cory Booker to 
                              Michael Poth
    Question. New Jersey is using FirstNet spectrum for an exciting 
public safety broadband project known as ``JerseyNet.'' This project is 
overseen by Fred Scalera, a recognized expert in emergency 
communications. The project, which is spread throughout the state and 
includes areas in the Route 21 corridor between Camden and Atlantic 
City, explores the use of mobile systems to be deployed in case of an 
emergency. This project will address a problem that arose during 
Superstorm Sandy, when storm damage brought down critical 
telecommunications systems.
    This project could be a model for the country, greatly contributing 
to network functionality in times of crisis. Additionally, because the 
units are mobile, they can be deployed to assist other states when 
needed. These mobile units were deployed and successfully used during 
Pope Francis's visit to Philadelphia last September, and they continue 
to be tried and tested at large scale events in the region.
    What has FirstNet learned from the JerseyNet project? What role 
does FirstNet envision for the use of deployable assets in a future 
first responder telecommunications network?
    How will you ensure that FirstNet, when deployed, will take 
advantage of the latest mobile broadband technologies?
    Answer. FirstNet acknowledges the contributions of Mr. Scalera and 
the JerseyNet team. JerseyNet and the other early builder projects that 
FirstNet supports provide valuable key lessons that have been leveraged 
in the creation of the FirstNet Request for Proposal. As documented in 
FirstNet's Fiscal Year (FY) 2014 and FY 2015 Annual Reports to 
Congress, deployable assets will likely be a key element of the 
FirstNet network, and FirstNet continues to leverage the collaborative 
work with the State of New Jersey and NTIA to support planning and 
implementation of these deployable capabilities. The unique deployable 
design elements engineered by the JerseyNet team, such as sizing to 
quickly enable parking garage rooftop deployments, and rack mount 
assets to provide rooftop deployment flexibility, have been 
particularly useful. We expect the future network will leverage the 
important lessons gleaned from the JerseyNet project.
    Over the past year, substantial progress was made by the JerseyNet 
project team, highlighted by successful procurement, design, 
engineering, and deployment of multiple classes of deployable assets. 
The JerseyNet deployable assets have already successfully deployed to 
support many in-state communications initiatives, as well as 
neighboring states' response efforts when required. Of special note, 
the project successfully supported the September 2015 Papal visit to 
Philadelphia using their System on Wheels (SOW) trailers and van and 
Sports Utility Vehicle (SUV)-based Vehicular Network Systems (VNS). The 
project also successfully supported concerts and other annual events in 
Atlantic City, multiple exercises validating the value of public-safety 
specific applications and network resources, and, most recently, 
support of the PGA Championship in Springfield, NJ.
    Public safety agency use of the JerseyNet broadband network 
continues to increase. In the remainder of 2016, FirstNet anticipates 
that JerseyNet will attract a substantial population of public safety 
users and further exercise the Key Learning Conditions (KLCs) defined 
in their Spectrum Management Lease Agreement (SMLA) with FirstNet. 
These KLCs are:

  1.  Demonstration and documentation of the use and capabilities of 
        rapidly deployable assets;

  2.  Conducting emergency management exercises and training activities 
        with these deployable assets; and

  3.  Documenting best practice Network Operations Center (NOC) 
        notification approaches, including trouble ticketing, 
        prioritization, reporting, and ticket close-out.

    The network as a whole will continue to evolve and grow with 
changing technology similar to a traditional commercial network. This 
was the vision of Congress, and FirstNet intends to work with its 
eventual partner to manage continual advancement of the network, 
devices, and services to meet ongoing public safety needs. Because the 
Act does not mandate that public safety entities use FirstNet services, 
FirstNet and our future partner will have to provide public safety a 
value proposition and competitive offerings, featuring the latest 
technology, including deployable systems like those in the JerseyNet 
system.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Joe Manchin to 
                              Michael Poth
    Question. It is my understanding that in addition to FirstNet, any 
state that chooses to opt out and build its own radio access network is 
also required to reinvest any fees they collect back into the 
operation, maintenance, and improvement of the nationwide network. 
Although Congress intended to balance the goal of building a nationwide 
network with an opportunity for states to build their own, it certainly 
did not intend to create an incentive for states to opt out of 
FirstNet's network. However, it has been brought to my attention that 
there is still some debate about whether higher-density states that 
have opted out would be able to divert some fees into state general 
funds.
    Could the panel clarify if both FirstNet and the states that have 
opted out are required to reinvest any fees they collect back into the 
network?
    Does the panel believe states could divert surplus fees into state 
general funds under the authorizing language?
    Answer. It is Congress' vision of bringing mission critical 
broadband capabilities to public safety in all of the Nation's 56 
states and territories that drives FirstNet's work. The task that 
Congress has given the organization is vast, not only because it has 
never been accomplished before, but also because FirstNet is working 
with limited resources. Accordingly, based on the language and intent 
of the Act and in consideration of the funding mechanisms available, 
FirstNet has interpreted the Act to require that all revenues, 
including user/subscriber fees or fees from any public-private 
partnership, received by either FirstNet or a state that successfully 
assumes responsibility for radio access network deployment must be 
reinvested in the network. See Final Interpretations of Parts of the 
Middle Class Tax Relief and Job Creation Act of 2012, 80 Fed. Reg. 
63504 (Oct. 20, 2015).
    More specifically, while not subject to the requirements of the 
Administrative Procedure Act (5 U.S.C. Chapter 5), FirstNet conducted 
an open, public comment process on this matter to obtain input from 
stakeholders leading to final legal interpretations of the Act. See id. 
Through this open proceeding and with the support of a majority of 
commenters, FirstNet concluded that network revenue gained by an opt-
out state must be reinvested in that state's RAN, and any excess 
revenue (beyond what is reasonably necessary to build, operate, 
maintain, or upgrade the state's RAN) must be reinvested into the 
nationwide network. This conclusion is based on Congress' directive to 
ensure the fiscal sustainability, and ultimately the success of the 
project, nationwide inclusive of rural areas.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Gary Peters to 
                              Michael Poth
    Question 1. Nearly one-third of Michigan's population lives in non-
urban areas, many of which lack reliable access to broadband. Cities 
and towns in these regions, especially in Northern Michigan and the 
Upper Peninsula, are popular tourist destinations and can multiply 
their populations during the high season. I am concerned that FirstNet, 
to date, has focused its planning and coordination efforts in areas 
with existing broadband coverage, rather than first working to fill the 
gap in areas with no reliable access.
    What is FirstNet doing to address these rural gaps and assure that 
public safety officials in our Nation's most rural areas will have 
access to FirstNet's broadband network?
    Answer. To accomplish its mission to ensure the establishment of a 
Nationwide Public Safety Broadband Network (NPSBN) that is self-
sustainable, is re-capitalized, and meets rural deployment 
requirements, Congress provided FirstNet three fundamental tools: a 
one-time allocation of $7 billion generated from spectrum auctions held 
by the Federal Communications Commission (FCC), 20 MHz of spectrum in 
the 700 MHz band known as Band 14, and the authority to assess fees and 
enter into covered leasing agreements (CLAs) to monetize the excess 
capacity of Band 14 spectrum.
    FirstNet recognizes that rural deployment of the NPSBN is a part of 
its mission and that rural coverage will be needed in Michigan's rural 
areas and throughout rural America. FirstNet aims to identify and 
improve rural coverage gaps for public safety throughout the deployment 
of the NPSBN and FirstNet's intended 25-year contract with the RFP 
awardee.
    As part of its planning efforts, FirstNet has taken a number of 
actions to ensure rural deployment of the network, including: 
consulting with and collecting data from states and territories 
(including Michigan) to identify coverage needs and objectives, setting 
rural deployment milestones as an evaluating factor in FirstNet's RFP 
to deploy the NPSBN, and incorporating technical solutions to address 
coverage in rural areas (e.g., deployable capabilities) as part of the 
RFP.

    Consultation and Data Collection:

    FirstNet has consulted with local, state/territory, tribal, and 
Federal public safety entities to ensure that the NPSBN is designed to 
meet the needs of public safety across the country. FirstNet has and 
will continue to work through the SPOCs to gather feedback from key 
stakeholders for reviewing its deployment plan.
    FirstNet will deliver a state plan to each governor regarding 
FirstNet's plan to deploy the RAN within the state or territory. 
Throughout the development of our RFP, FirstNet sought firsthand, 
original data from the states to ensure that the information passed 
onto the vendor community was state driven with accurate, local 
information. The RFP that the vendor community bid on, was built with 
the data received to ensure that the states had significant input into 
the development of the NPSBN. The State data collection was also made 
available in whole to all potential bidders.
    FirstNet requested the following information from the states:

  1.  Coverage: Identify desired coverage within the state or territory 
        and proposed build out phases.

  2.  Users and Operational Areas: Gather information on the eligible 
        user base and their respective operational areas.

  3.  Capacity Planning: Estimate current data usage today from typical 
        users with indicators of potential growth.

  4.  Current Providers/Procurement: Identify current service providers 
        and plans, procurement vehicles, and barriers to adoption.

  5.  State Plan Decision Process: Document the final state plan review 
        process prior to submission to the Governor and any potential 
        barriers/issues FirstNet should be aware of.

    Rural as Evaluating Factor in the RFP:

    The Act also requires that FirstNet meet substantial rural 
milestones in each phase of NPSBN deployment to ensure that deployment 
in rural parts of the country were achieved at a similar speed as urban 
deployment. See 47 U.S.C. Sec. 1426(b)(3). In the RFP, offerors were 
asked to propose solutions to reach rural milestones using Band 14 
spectrum. The proposals should follow these phases, where IOC is the 
Initial Operating Capacity, and FOC is the Final Operating Capacity.

   RFP Solicitation No. D15PS00295--Section J, Attachment J-8 IOC/FOC
                                Timeline
------------------------------------------------------------------------
           IOC-1
             6
  Phase    months  IOC-2  12  IOC-3  24  IOC-4  36  IOC-5  48   FOC  60
            from     months     months     months     months     months
           award
------------------------------------------------------------------------
Substant           Achieveme  Achieveme  Achieveme  Achieveme  Achieveme
 ial                nt of      nt of      nt of      nt of      nt of
 Rural              20% of     60% of     80% of     95% of     100% of
Mileston            Contract   Contract   Contract   Contract   Contract
 es                 or's       or's       or's       or's       or's
                    proposed   proposed   proposed   proposed   proposed
                    Band 14    Band 14    Band 14    Band 14    Band 14
                    coverage   coverage   coverage   coverage   coverage
------------------------------------------------------------------------

    FirstNet is in the process of RFP evaluation, and will be 
evaluating offerors' proposals on their proposed rural coverage and how 
they intend to meet those milestones.

    Question 2. Once built, will FirstNet facilitate opportunities for 
spectrum sharing with local governments so FirstNet's network can be 
leveraged to provide consumer broadband services, on a secondary basis, 
for purposes such as business development, education, and telemedicine?
    Answer. FirstNet's enabling legislation limits access to network 
capacity on a secondary basis for non-public safety services to those 
entities that enter into a Covered Leasing Agreement (CLA) with 
FirstNet. A CLA results from a ``public-private arrangement'' (i.e., 
not government to government) in which the secondary user agrees to 
construct, manage, or operate all or a portion of the nationwide public 
safety broadband network and in return is permitted to access network 
capacity on a secondary basis for non-public safety services. See 47 
U.S.C. Sec. 1428. Consequently, it is not permissible under the Act for 
FirstNet to enter into a CLA (i.e., ``spectrum sharing arrangement'') 
directly with or provide access to a local government for secondary use 
of the spectrum for non-public safety services. Further, to the extent 
that a local government entity provides a public safety service that 
qualifies it as a public safety entity under the Act, such an entity 
would be able to receive services directly from FirstNet.
    FirstNet also understands that Michigan has amended state law to 
allow for private entities to co-locate at state owned sites. This was 
a forward looking action and is applauded by FirstNet. In the future, 
FirstNet, along with the private sector entity that is selected through 
the procurement process, will continue to look for opportunities that 
would allow for the expansion and deployment of the network in a cost-
effective manner that leverage new partnerships that may not exist 
today.

    Question 3. Companies that provide products and services in areas 
such as public safety, defense, and cybersecurity could greatly benefit 
from having access to the FirstNet network for research and development 
work as a way to address operational and technical challenges in their 
fields.
    Do you expect that interested companies will be able to work with 
FirstNet to test new products and services on the FirstNet network?
    Answer. As indicated above, the Act limits the access to and use of 
the FirstNet network to (1) public safety entities and (2) secondary 
users that enter into a CLA with FirstNet to construct, manage, or 
operate all or a portion of the nationwide public safety broadband 
network.
    With respect to researching and testing products and services, the 
Act provided the Public Safety Communications Research (PSCR) program 
with $300 million for research and to assist in ``the development of 
standards, technologies, and applications to advance wireless public 
safety communications,'' including for use on the FirstNet network. 
[See 47 U.S.C. Sec. Sec. 1443, 1457.] PSCR has begun an innovative set 
of prize competitions to spur innovation and technical research in 
these focus areas. For additional information regarding PSCR's schedule 
and priority areas for research, please contact PSCR.
    Additionally, in the RFP, FirstNet asked offerors to propose 
certification and compliance mechanisms for devices, applications, and 
services that will run on the network. FirstNet is developing a 
laboratory in Boulder, CO that will supplement our partner's proposed 
certification processes in order to support the integrity of the 
network and build public safety's confidence in FirstNet's devices and 
services. For more information on this topic relative to devices, see 
the following FirstNet blog: Kameron Behnan, Tech Talk: Intro to 
FirstNet's Device Approval Process, (Apr. 4, 2016), available at http:/
/www.firstnet.gov/newsroom/blog/tech-talk-intro-firstnets-device-
approval-process
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Joe Manchin to 
                           Jeffrey S. McLeod
    Question 1. It is my understanding that in addition to FirstNet, 
any state that chooses to opt out and build its own radio access 
network is also required to reinvest any fees they collect back into 
the operation, maintenance, and improvement of the nationwide network. 
Although Congress intended to balance the goal of building a nationwide 
network with an opportunity for states to build their own, it certainly 
did not intend to create an incentive for states to opt out of 
FirstNet's network. However, it has been brought to my attention that 
there is still some debate about whether higher-density states that 
have opted out would be able to divert some fees into state general 
funds.
    Could the panel clarify if both FirstNet and the states that have 
opted out are required to reinvest any fees they collect back into the 
network?
    Answer. NGA does not have sufficient information to offer 
substantive answers.

    Question 2. Does the panel believe states could divert surplus fees 
into state general funds under the authorizing language?
    Answer. NGA does not have sufficient information to offer 
substantive answers.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Joe Manchin to 
                        General Arthur J. Logan
    Question 1. It is my understanding that in addition to FirstNet, 
any state that chooses to opt out and build its own radio access 
network is also required to reinvest any fees they collect back into 
the operation, maintenance, and improvement of the nationwide network. 
Although Congress intended to balance the goal of building a nationwide 
network with an opportunity for states to build their own, it certainly 
did not intend to create an incentive for states to opt out of 
FirstNet's network. However, it has been brought to my attention that 
there is still some debate about whether higher-density states that 
have opted out would be able to divert some fees into state general 
funds.
    Could the panel clarify if both FirstNet and the states that have 
opted out are required to reinvest any fees they collect back into the 
network?
    Answer.
FirstNet
    Sec.6208 (a-d) authorizes FirstNet to assess and collect fees, 
establish fee amounts and receive annual approval from NTIA as to the 
fees assessed and that such fees may only be assessed with the approval 
of NTIA. Part (d) of the section states: ``Required Reinvestment of the 
Funds--The First Responder Network Authority shall reinvest amounts 
received from the assessment of fees under this section in the 
nationwide public safety broadband network by using such funds only for 
constructing, maintaining, operating, or improving the network.'' 
(emphasis added).
    By that language, FirstNet is required to reinvest back into the 
network any fees collected.
Opt-Out States:
    Section 6302 (f) indicates if a State chooses to build its own 
radio access network, the State shall pay any user fees associated with 
State use of elements of the core network. Subparagraph (g) 
Prohibition, subsection (2) Rule of Construction states: Any revenue 
gained by the State from such a leasing agreement shall be used only 
for constructing, maintaining, operating, or improving the radio access 
network of the State.
    The language of this section appears to contemplate that a State 
choosing to build its own RAN, upon approval of its alternative plan by 
the FCC, must still pay FirstNet for the use of the NPSBN and any 
revenue it may gain from a leasing agreement as part of any public-
private partnership derived from its approved alternate plan shall be 
used only for constructing, maintaining, operating or improving the 
radio access network of the State.
    Conclusion: The language in both sections requires that any fees 
generated, either by FirstNet or an Opt-Out State, must be reinvested 
back into the network.

    Question 2. Does the panel believe states could divert surplus fees 
into state general funds under the authorizing language?
    Answer. The intent of the legislation was to create a Nationwide 
Public Safety Broadband Network (NPSBN) to fully support the unique 
communications needs of first responders. FirstNet is charged with 
taking all actions necessary to ensure the building, deployment, and 
operation of the NPSBN. The language of the statute does provide states 
the opportunity to ``opt-out'' and build their own RAN if conditions 
under the law are met and their alternate plans are approved.
    What is consistent is that neither FirstNet nor the States which 
may elect to ``opt-out'' may use any fees collected for anything other 
than constructing, maintaining, operating or improving the radio access 
network.
    Nothing in the language of the statute indicates States should be 
able to divert surplus fees into their respective state's general fund.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Kelly Ayotte to 
                            Andrew Katsaros
    Question 1. As you highlighted in your testimony, FirstNet has a 
coverage challenge with ``the geography of 56 jurisdictions . . . and 
the bulk of the population residing in about 5 percent of the U.S. land 
mass. The rest of the population resides in rural and wilderness 
settings.'' The enormous task of balancing costs and fees in densely 
populated areas versus sparsely populated areas is not going unnoticed 
in my home state of New Hampshire. Concerns remain that FirstNet's 
footprint will remain small and constrained to southern New Hampshire's 
more densely populated cities. Do you believe that FirstNet has a 
viable path forward to provide sufficient buildout in rural areas that 
would enable effective first responder communications?
    Answer.
    Short Answer
    It is OIG's understanding that, as of August 26, 2016, FirstNet 
continues to develop, but has not yet finalized, a specific path 
forward for the Nationwide Public Safety Broadband Network (NPSBN) 
build-out of rural and non-rural areas. FirstNet and its yet-to-be 
selected vendor must still propose a viable, sufficient plan that 
enables effective first responder communications in rural areas.

    Background
    As of August 26, 2016, FirstNet has not finalized a specific path 
forward for the NPSBN build-out of rural and non-rural areas. The path 
forward will become clearer after (1) FirstNet selects a NPSBN build-
out vendor through its Request for Proposals (RFP) process, which is 
expected by the end of calendar year 2016; and (2) States decide 
whether to opt-in or opt-out of the Radio Access Network (RAN) State 
Plans. After these decisions are made, FirstNet and its vendor will be 
able to better estimate costs and fees, which will allow it to develop 
a specific plan for the build-out and deployment in rural and non-rural 
areas.
    ``By law, FirstNet is responsible for working through the 
designated State points of contact to consult with states, local 
communities, tribal governments, and first responders to gather 
requirements for developing RAN . . . State Plans.'' \1\ Accordingly, 
FirstNet has developed a consultation process to discuss and understand 
State's rural coverage needs and other priorities. It will be critical 
that States communicate their needs during the consultation process and 
that FirstNet addresses those needs, especially during the development 
of RAN State Plans.
---------------------------------------------------------------------------
    \1\ National Telecommunications and Information Administration. 
``The Process for Working with FirstNet.'' See https://
www.ntia.doc.gov/files/ntia/publications/fact_sheet_process-9-19-13.pdf 
(accessed August 31, 2016).
---------------------------------------------------------------------------
    The Middle Class Tax Relief and Job Creation Act of 2012 (the Act) 
states that the nationwide network shall require deployment phases with 
substantial rural coverage milestones as part of each phase of the 
construction and deployment of the network. To the maximum extent 
economically desirable, such proposals shall include partnerships with 
existing commercial mobile providers to utilize cost-effective 
opportunities to speed deployment in rural areas.\2\
---------------------------------------------------------------------------
    \2\ See Middle Class Tax Relief and Job Creation Act of 2012 (The 
Act), Pub. L. No. 112-96, Sec. 6206(b)(3), 126 Stat. 212.
---------------------------------------------------------------------------
    Consistent with the Act, FirstNet established substantial rural 
milestones in its RFP that require coverage in rural areas in each 
phase of the build-out. FirstNet will also evaluate potential vendors 
on a variety of factors, including the vendor's capability of providing 
rural coverage. For example, FirstNet will evaluate, in part, a 
potential vendor's capability of providing coverage and capacity in 
each of the 56 States and territories, including rural and non-rural 
areas. In addition, FirstNet will evaluate potential vendors ``based on 
their demonstration of their existing and planned partnerships with 
rural telecommunications providers, including commercial mobile 
providers, utilizing existing infrastructure to the maximum extent 
economically desirable to speed deployment in rural areas.'' \3\
---------------------------------------------------------------------------
    \3\ U.S. Department of the Interior, Interior Business Center, 
January 13, 2016. FirstNet Nationwide Public Safety Broadband Network 
(NPSBN), Solicitation Number: D15PS00295. Herndon, VA: DOI, Sect M, M-
2.
---------------------------------------------------------------------------
    Question 2. Additionally, how can FirstNet provide cost certainty 
and transparent billing to states with concerns that there will be 
unforeseen costs--especially that buildout to rural areas may fall on 
their shoulders?
    Answer.
    Short Answer
    Although FirstNet has made progress in establishing the NPSBN, OIG 
believes it is too early for FirstNet to be able to provide cost 
certainty and transparent billing to States and territories.

    Background
    Public safety entity (PSE) NPSBN user cost is dependent on 
FirstNet's upcoming selection of a vendor to partner with on the 
design, build, and implementation of the NPSBN. ``In January 2016, 
FirstNet issued a RFP for the purpose of seeking a vendor to build and 
operate the NPSBN.'' \4\ Included within the RFP is an objective to 
``[e]stablish (i) compelling, differentiated, and competitively priced 
service packages and (ii) sales, distribution, and marketing 
capabilities to ensure adoption of FirstNet products and services by a 
majority of eligible PSEs within four years of award.'' \5\ Since PSEs 
are not required to subscribe to FirstNet services, the pricing 
schedule developed by FirstNet and its contracted vendor will affect 
whether PSEs choose to subscribe to FirstNet services. FirstNet plans 
to award the contract by the end of calendar year 2016.
---------------------------------------------------------------------------
    \4\ U.S. Department of Commerce Office of Inspector General, June 
21, 2016. Ongoing Activities and Challenges Facing the First Responder 
Network Authority in their Establishment of a Nationwide Public Safety 
Broadband Network, OIG-16-034-T. Washington, DC: DOC OIG, 2.
    \5\ DOI Interior Business Center, January 13, 2016. FirstNet 
Nationwide Public Safety Broadband Network (NPSBN), Solicitation 
Number: D15PS00295E. Herndon, VA: DOI, Section C.
---------------------------------------------------------------------------
    Additionally, State decisions regarding whether to opt-in or opt-
out of FirstNet's NPSBN will affect the cost of using FirstNet's core 
network. Following the award of the contract, FirstNet is required to 
provide States with a plan that describes its approach to provide NPSBN 
coverage in the State. To obtain the information necessary to develop 
State Plans, FirstNet has consulted with--and requested information 
from--States and territories.
    Under the Act, Governors will be given the opportunity to review 
the FirstNet-provided State Plan to determine if it meets the State's 
needs.\6\ If a State decides to opt-in, FirstNet will be responsible 
for deploying, operating, and upgrading the RAN in that State, 
including getting PSEs to purchase its service. If a State decides that 
the plan does not meet its PSE needs and opts-out, the State can then 
deploy its own RAN by providing an alternative plan to the Federal 
Communications Commission (FCC) and National Telecommunications and 
Information Administration (NTIA) for approval and by negotiating a 
spectrum lease agreement with FirstNet to tie into the NPSBN core 
network. Under this option, the State would determine the build-out to 
rural areas, associated prices to PSEs, and related costs.
---------------------------------------------------------------------------
    \6\ See Middle Class Tax Relief and Job Creation Act of 2012 (The 
Act), Pub. L. No. 112-96, Sec. 6302(e)(2), 126 Stat. 219-220.
---------------------------------------------------------------------------
    FirstNet has acknowledged the challenges of balancing costs and 
fees from densely populated areas versus sparsely populated areas. In 
considering network funding and revenue reinvestment provisions, 
FirstNet noted that
    Congress mandated that FirstNet deploy a self-sustaining, 
nationwide network, irrespective of if a State opts-in or opts-out. 
Given the finite funding sources and Congress' mandate that FirstNet 
meet substantial rural milestones, it is critical that FirstNet 
leverages the high-density, high-revenue-generating areas of all 
States. This nationwide solution achieves expeditious delivery of 
dedicated, wireless broadband services to public safety in all areas of 
the country.\7\
---------------------------------------------------------------------------
    \7\ FirstNet. ``FirstNet Network Funding and Revenue Reinvestment 
Provisions.'' See http://www.firstnet.gov/sites/default/files/FirstNet-
Network-Funding-Revenue-Reinvestment-Provisions.pdf (accessed August 
31, 2016).
---------------------------------------------------------------------------
    As it must meet the massive costs of deploying the nationwide 
network, FirstNet has stated that it has a duty to protect the fees 
generated in high-density areas in excess of what is needed to 
reasonably maintain the RAN for use in building-out rural coverage 
areas.\8\
---------------------------------------------------------------------------
    \8\ FirstNet, September 2015. ``Use of State and Local 
Infrastructure, Rural Coverage, `Early Builders' and Pilots, Frequently 
Asked Questions (FAQs).'' Page 2. See http://www.firstnet.gov/sites/
default/files/Use%20of%20local-state-infrastructure%20FAQs_150902.pdf 
(accessed August 31, 2016).

    Question 3. Lastly, what do you believe are the most important 
aspects for states to consider when deciding whether to opt-in or opt-
out of FirstNet's proposal?
    Answer.
    Short Answer
    When deciding whether to opt-in or opt-out of FirstNet's proposal 
for an individual State or territory, governors of States and 
territories must weigh how well the provided State Plan meets their 
public safety needs against the responsibilities (deploying, operating, 
and upgrading) and accompanying risks associated with deploying the 
State RAN on their own.

    Background
    Consistent with the Act, FirstNet will provide a State Plan to 
governors so they can decide whether FirstNet (opt-in) or the State/
territory (opt-out) takes on the responsibility to deploy, operate, and 
maintain the RAN that will interconnect with the nationwide core 
network. This decision has serious implications in terms of the 
responsibilities and accompanying risks a State will assume, including:

  <bullet> For opt-in entities, no additional action is needed as 
        FirstNet provides funds to deploy, operate, and upgrade the 
        network for that State or territory.

  <bullet> For opt-out entities, States and territories are responsible 
        for funding the network deployment (with potential grant 
        money), operation, and maintenance. If this option is selected, 
        States and territories must develop an alternative plan to be 
        approved by the FCC and obtain NTIA approval that the plan 
        meets the requirements of the Act (e.g., ongoing 
        interoperability, cost effectiveness, and comparable security, 
        coverage, timeliness, and quality of service). States and 
        territories would then need to negotiate a spectrum capacity 
        lease with FirstNet.

    To facilitate the development of responsive State Plans, FirstNet 
has conducted ongoing efforts such as initial consultations, State data 
submissions, public notices, and governance body meetings to capture 
the needs and wishes of local, State, and tribal public safety 
stakeholders. FirstNet will provide State Plan information related to 
(1) extent of coverage; (2) services (e.g., plans, pricing, and 
security); (3) applications and features; and (4) devices and 
accessories to be considered in deciding whether to opt-in or opt-out. 
As FirstNet has acknowledged in its June 21, 2016 testimony before this 
Committee, the goal of getting to 100 percentage of coverage throughout 
the 56 States and territories is aggressive; we believe coverage, 
particularly in rural areas, to be a key variable in each State's 
decision.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Joe Manchin to 
                            Andrew Katsaros
    Question 1. It is my understanding that in addition to FirstNet, 
any state that chooses to opt out and build its own radio access 
network is also required to reinvest any fees they collect back into 
the operation, maintenance, and improvement of the nationwide network. 
Although Congress intended to balance the goal of building a nationwide 
network with an opportunity for states to build their own, it certainly 
did not intend to create an incentive for states to opt out of 
FirstNet's network. However, it has been brought to my attention that 
there is still some debate about whether higher-density states that 
have opted out would be able to divert some fees into state general 
funds.
    Could the panel clarify if both FirstNet and the states that have 
opted out are required to reinvest any fees they collect back into the 
network?
    Answer.
    Short Answer
    Our understanding is that both the First Responder Network 
Authority (FirstNet) and the States that opt out are required to 
reinvest excess fees back into the network.

    Background
    The Middle Class Tax Relief and Job Creation Act of 2012 (the Act) 
authorizes FirstNet to be a permanent self-funding entity, assessing 
and collecting network user fees, lease fees related to network 
capacity, and lease fees related to network equipment and 
infrastructure.\1\ The Act states that the total amount of fees 
assessed for each Fiscal Year shall be sufficient, and not exceed the 
amount necessary, to recoup the total expenses of FirstNet in carrying 
out its duties and responsibilities.\2\ FirstNet must reinvest amounts 
received from the assessment of fees in the Nationwide Public Safety 
Broadband Network (NPSBN) by using such funds only for constructing, 
maintaining, operating, or improving the network.\3\
---------------------------------------------------------------------------
    \1\ See Middle Class Tax Relief and Job Creation Act of 2012 (The 
Act), Pub. L. No. 112-96, Sec. 6208(a), 126 Stat. 215-16.
    \2\ Id. at Sec. 6208(b), 126 Stat. 216.
    \3\ Id. at Sec. 6208(d), 126 Stat. 216.
---------------------------------------------------------------------------
    The Act further requires that those States that wish to opt out of 
FirstNet and build their own Radio Access Network (RAN) to submit their 
alternative plans for the RAN to the Federal Communications Commission 
(FCC). Upon approval of the plan by the FCC, the States are required to 
apply to the National Telecommunications and Information Administration 
(NTIA) to lease spectrum capacity from FirstNet.\4\ Those States must 
demonstrate the cost-effectiveness of their alternative plans, among 
other requirements.\5\ FirstNet, as the designated licensee of the 
spectrum and an independent authority within NTIA, must ultimately 
decide the terms for entering into spectrum capacity leases and whether 
to enter into a lease with a State.\6\ Similar to FirstNet 
requirements, the Act states that ``[a]ny revenue gained by the State 
from such a leasing agreement shall be used only for constructing, 
maintaining, operating, or improving the radio access network of the 
State.'' \7\
---------------------------------------------------------------------------
    \4\ Id. at Sec. 6302(e)(3), 126 Stat. 220-21.
    \5\ Id. at Sec. 6302(e)(3)(D), 126 Stat. 220-21.
    \6\ Final Interpretations of Parts of the Middle Class Tax Relief 
and Job Creation Act of 2012, 80 Fed. Reg. 63,504, 63519 (Oct. 20, 
2015).
    \7\ The Act, Pub. L. No. 112-96 Sec. 6302(g)(2), 126 Stat. 221.
---------------------------------------------------------------------------
    FirstNet has published its Final Interpretations of Parts of the 
Middle Class Tax Relief and Job Creation Act of 2012 in the Federal 
Register.\8\ Below, we highlight FirstNet's interpretations that 
indicate States will be required to reinvest fees back into the NPSBN.
---------------------------------------------------------------------------
    \8\ 80 Fed. Reg. 63,504 (Oct. 20, 2015).
---------------------------------------------------------------------------
    FirstNet explained that it ``has an obligation to ensure the 
establishment of a nationwide network and must take into consideration 
the interests of all States rather than only a single State.'' \9\ 
FirstNet then determined that ``as a part of its decision to enter into 
a spectrum capacity lease it must take into account the cost-
effectiveness of the proposed alternative State plan, including the 
impact of the plan on the nationwide network.'' \10\
---------------------------------------------------------------------------
    \9\ Id. at 63,520
    \10\ Ibid.
---------------------------------------------------------------------------
    FirstNet concluded that as part of the cost-effective analysis in 
determining whether and under what terms to enter into a spectrum 
capacity lease, it ``may require that amounts generated within a State 
in excess of those required to reasonably sustain the State RAN, be 
utilized to support the Act's requirement to deploy the NPSBN on a 
nationwide basis.'' \11\ FirstNet also concluded that the Act requires 
opt-out States--i.e., ones that assume the responsibilities for RAN 
deployment and charge user fees--to reinvest such fees into the 
network.\12\ Finally, FirstNet concluded that, as part of its cost-
effectiveness analysis, it must consider State reinvestment and 
distribution of any user fees assessed to public safety entities or 
spectrum capacity revenues in determining whether and under what terms 
to enter into a spectrum capacity lease.\13\
---------------------------------------------------------------------------
    \11\ Id. at 63,519.
    \12\ Id. at 63,506.
    \13\ Id. at 63,519.
---------------------------------------------------------------------------
    FirstNet, in making its final interpretation regarding its 
analyzing funding considerations as part of its determination to enter 
into a spectrum capacity lease, stated that:

        States seeking and receiving approval of alternative RAN plans 
        could materially affect FirstNet's funding sources and thus its 
        ability to serve public safety, particularly in rural States. 
        More precisely, a State that assumes RAN deployment 
        responsibilities could benefit from, or supplant, these funding 
        sources by generating and retaining amounts in excess of that 
        necessary to reasonably maintain the particular State RAN 
        through monetization of FirstNet's licensed spectrum. By doing 
        so, the excess value above that reasonably needed to operate 
        and maintain the RAN would no longer be available to help 
        ensure that nationwide deployment, particularly in higher cost 
        rural areas, will occur. This undermines the intent of the Act 
        and the express requirement for FirstNet to deploy in rural 
        areas as part of each phase of implementation.\14\
---------------------------------------------------------------------------
    \14\ Id. at 63,518-19.

    Accordingly, FirstNet concludes, based on the language and intent 
of the Act that Congress did not intend to permit alternative RAN plans 
that inefficiently utilize scarce spectrum resources to hinder the 
nationwide deployment of the NPSBN by depriving it of needed financial 
support. FirstNet further concludes that it must thus consider the 
effect of any such material inefficiencies, among other things, on the 
NPSBN in determining whether and what terms to enter into a spectrum 
capacity lease.\15\
---------------------------------------------------------------------------
    \15\ Id. at 63,519.

    Question 2. Does the panel believe states could divert surplus fees 
into state general funds under the authorizing language?
    Answer. Based on our response to the previous question, we do not 
believe States are able to divert surplus fees into State general funds 
under the authorizing language and FirstNet's interpretations.

                                  <all>

                  This page intentionally left blank.
                  This page intentionally left blank.
                  This page intentionally left blank.






      
</pre></body></html>
